<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        TUESDAY, MARCH 23, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Reed, Specter, and Cochran.

                          DEPARTMENT OF LABOR

                        Office of the Secretary

STATEMENT OF HON. HILDA L. SOLIS, SECRETARY


                opening statement of senator tom harkin


    Senator Harkin. The Subcommittee on Labor, Health, Human 
Services, Education, and Related Agencies will come to order.
    Welcome back to the subcommittee, Madam Secretary. I thank 
you for adjusting your time to come a little early.
    We are boarding the bus at 10:15 a.m. to go to the White 
House, and I don't want to miss this historic occasion, to be 
there for signing of the healthcare reform bill. I might point 
out I have my Franklin Roosevelt tie on today, as a reminder of 
what we are about to witness, and the momentous occasion that's 
going to take place this morning with President Obama signing 
the healthcare bill into law. So, thank you for coming up 
early.
    Well, Madam Secretary, just a few comments, here. First of 
all, thanks to President Obama and to the team he has around 
him, including you, and thanks to actions taken by Congress in 
the recovery bill, it seems that the economy is stabilizing. 
But, still far too many people do not have a job. The national 
unemployment rate officially stands at 9.7 percent; that's 
about 14.9 million Americans out of work. But we know there's 
another 8 to 9 million people out there that want to work full 
time, can work full time, but the jobs just aren't available.
    Now, we know the situation could have been worse. The 
Congressional Budget Office recently estimated that roughly 2 
million workers had jobs last quarter because of the Recovery 
Act. Two million. Today, more than 200 construction workers are 
helping build a new Job Corps Center at the Ottumwa Campus of 
the Indian Hills Community College in my State of Iowa. Madam 
Secretary, you were there for me last year when we broke ground 
for this center. These construction jobs were made possible by 
$23 million in Recovery Act funds.
    And I just noticed that Dr. Lindenmayer, who is the 
president of Indian Hills Community College, is here today with 
some students from the Denison Job Corps Center. And I want to 
welcome them here today. Again, this is why we're doing this, 
to focus on the job force, our Nation's workforce of the 
future.


                        fiscal year 2011 budget


    Madam Secretary, your fiscal year 2011 budget builds on the 
foundations set by the Recovery Act and the 2010 appropriations 
bill. You have proposed key investments in workforce 
innovation, green job training, and I compliment you for that. 
Your budget would also continue the Disability Employment 
Initiative that we started last year in the 2010 appropriations 
bill. Again, more than 20 million disabled Americans are not 
participating in our workforce. That's a missed opportunity. We 
must do better. And I thank you for continuing this program in 
your budget.
    The downturn in the economy also means that workers' rights 
are more vulnerable to employer abuse or misunderstanding. Your 
budget proposes important investments that will help address 
worker misclassification, workplace safety, health activities, 
and, of course, international labor rights. I'm particularly 
pleased to see a proposed increase for Bureau of International 
Labor Affairs (ILAB), which leads our fight against the worst 
forms of child labor around the world. Thank you for that.
    Lastly, this budget does not simply propose to spend more 
money, it proposes to ensure the money is spent wisely. Your 
budget requests $40 million for 5 rigorous evaluations of DOL 
activities. These evaluations will help us learn how to best 
structure our DOL programs so they can operate more efficiently 
and effectively.


               proposed freeze on discretionary spending


    Madam Secretary, as you know the President has proposed a 
freeze on all nondefense discretionary spending for this year, 
so the choices we have as appropriators this year in writing 
our bill will not be easy ones. So, your testimony and your 
continued working with us will help keep us informed us as we 
try to shoehorn in all that we want to do within the 
President's proposal and to not have any increases.
    So, now I turn it over to Secretary Hilda Solis, sworn in 
as the 25th Secretary of Labor on February 24, 2009. I was 
privileged to be there to watch this very historic occasion. 
Prior to her confirmation, she served as a representative of 
the 32nd Congressional District in California. Secretary Solis 
is a noted leader on the issue of clean energy jobs, as well as 
training for veterans, displaced workers, at-risk youth, and 
improving the overall lives of disadvantaged and everyday 
working families. A graduate of California State Polytechnic 
University, got her master of public administration from the 
University of Southern California. As a former Federal 
employee, she worked in the Carter White House Office of 
Hispanic Affairs and as a management analyst with Office of 
Management and Budget in the in the Civil Rights Division.
    So, we were all very delighted when the President asked you 
to be his Secretary of Labor not only because of your knowledge 
of how we work up here, but because of your background as well. 
You brought a wealth of experience to this, and I think the 
last year has shown that. Thank you very much for your great 
leadership, and the floor is yours.


                summary statement of hon. hilda l. solis


    Secretary Solis. Thank you very much, Mr. Chairman.
    And, to the Vice Chairman, who isn't with us, and to the 
other subcommittee members, I want to thank you for inviting me 
here today to discuss our fiscal year 2011 budget and our 
request.
    I'd like to review selected highlights of my testimony with 
you.


                         recovery act resources


    First, I want to begin by saying that it's not possible to 
discuss next year's budget without acknowledging the immediate 
need to put people back to work. And you said it very 
pointedly. I'm proud of the work that we have done with the 
Recovery Act resources, including the assistance that was 
provided through the unemployment program, the Unemployment 
Insurance (UI) and COBRA benefits programs; the creation of 
nearly, 318,000 summer jobs for our youth; and the training 
opportunities that we created, particularly in health careers; 
and for jobs in the new green economy.


                           unemployment rate


    While these efforts are helping, they are clearly not 
sufficient and not enough. At the 9.7 percent unemployment 
rate, which remains persistently and unacceptably high, I know 
that you have been working hard with your colleagues to reach 
consensus on measures that will allow us to continue to help 
all Americans until the labor market fully recovers.
    There have been, clearly, some setbacks. But, as my 
testimony indicates, I hope that we can commit $1.2 billion to 
ensure a robust summer jobs program this year. And I want to 
thank, in particular, Senator Murray and yourself, Chairman 
Harkin, for your work on this particular issue, and pledge to 
work with you to see that we get this done. I would also like 
to see a jumpstart in our employment through a $500 million 
investment on the job training programs and add funding to 
further support our oversubscribed training programs.


                     workforce investment programs


    We then need to sustain these investments through programs 
that give workers the tools they need to succeed in the 21st 
century economy. And I want to highlight some of the measures 
in our budget request that will accomplish this goal.
    For the first time in more than a decade, the budget 
proposes a significant increase in funding for the Workforce 
Investment (WIA), programs. As you know, my team has been 
pleased to work closely with you and your staff on the process 
of WIA reauthorization. Following our approach in that process, 
the additional resources we're requesting for WIA are 
inextricably linked to reform through the establishment of two 
new WIA innovation funds.


                       green jobs innovation fund


    The budget also requests an increase of $45 million for 
Green Jobs Innovation Fund. And I can tell you from our 
experience with the Recovery Act, these competitions were very, 
very demanding. We had an enormous number of applicants that 
applied for this funding. So, the need is very great. We know 
that there are some wonderful partnerships that are out there, 
but our resources were limited and we couldn't fund all of 
them. Additional resources would allow us to meet this demand, 
connecting trainees with jobs by requiring that grantees work 
with employers to ensure that participants gain the necessary 
skills and industry-recognized credentials that will help them 
move into better and higher-paying jobs.


                    disability employment initiative


    Mr. Chairman, based on the approach that you championed 
this year, two Department of Labor (DOL) agencies--Employment 
and Training Administration (ETA) and the Office of Disability 
Employment (ODEP)--will continue to receive $12 million each to 
continue their joint disability employment initiative to 
increase the capacity of the one-stop system to provide 
accessible services to individuals with disabilities.


                       worker protection programs


    I know you understand it can be too easy to exploit workers 
when jobs are scarce. And we need to remain vigilant in 
protecting the rights and safety of our workers. In fiscal year 
2011, our budget continues that vigilance by hiring additional 
enforcement personnel. We build upon the resources you provided 
us with last year, to return our worker protection programs to 
fiscal year 2001 levels or greater, after years--many years of 
decline. To do so, the request includes $1.7 billion, 
equivalent to 10,957 full-time employees, for worker 
protection. This funding level is $67 million, or 4 percent, 
more than last year's level and the agency-by-agency details 
are in my prepared testimony.
    To reinvigorate our regulatory agenda--the request for 
worker protection includes increases to supplement the 
development of regulations in areas such as pensions, worker 
health, and safety.


                       employee misclassification


    The budget also contains an important interagency effort to 
address employee misclassification. Workers wrongly classified 
as independent contractors are denied critical benefits and 
protections to which they may be entitled to as employees, 
including overtime, health coverage, workers' compensation, 
family medical leave, and unemployment insurance. In addition, 
misclassification results in billions of dollars of loss to the 
Government through unpaid taxes. Our budget includes $25 
million to hire additional enforcement personnel targeted at 
misclassification and to fund competitive grants to help States 
to address this growing problem.
    Restoring our economy requires ensuring the world economy 
is sound and balanced. I firmly believe that our responsibility 
to promote acceptable conditions of work abroad is very, very 
much linked to our worker protection agenda here at home. It is 
with this goal in mind that we're requesting an additional $22 
million for ILAB to increase the monitoring of labor provisions 
of trade agreements, including provisions related to child 
labor, and to support programs to improve labor rights for 
workers with our trading-partner countries.


                           prepared statement


    Before I conclude, I want to say a few words about our 
commitment to ensuring accountability for the resources that 
you entrust us with. This is why my testimony links investments 
to performance outcomes and why we have a new commitment to 
program evaluation. Members of the subcommittee, we all know 
that too many Americans are ready and willing to work, but 
can't find a job. The budget before you will help spur new and 
better job opportunities while fostering safe workplaces and 
respect and dignity for workers' rights. This is what my goal 
of ``Good Jobs for Everyone'' is. And I look forward to working 
with you, Mr. Chairman, to see that vision is fulfilled.
    I'm happy to respond to any questions that you may have.
    [The statement follows:]
                  Prepared Statement of Hilda L. Solis
    Chairman Harkin, Vice Chairman Cochran, and members of the 
subcommittee, thank you for the invitation to testify today. I 
appreciate the opportunity to discuss the fiscal year 2011 budget 
request for the Department of Labor (DOL).
    The total request for DOL in fiscal year 2011 is $116.5 billion and 
17,800 full-time equivalent employees (FTE), of which $17.1 billion is 
before the subcommittee. Of that amount, $14 billion is requested for 
discretionary budget authority. Our budget request will build on the 
$4.8 billion in discretionary as well as the mandatory resources 
included for the Department in the American Recovery and Reinvestment 
Act (ARRA).
                      putting people back to work
    Workers and their families are hurting in these tough economic 
times. We know that job opportunities and economic security are of 
utmost importance to Americans. During my travels throughout the 
country, I have met many people who expected to be in their peak 
earning years, and yet were struggling to find employment and maintain 
retirement savings. At DOL, we are putting people back to work and 
assisting unemployed workers who need our help. Through ARRA 
investments funded by the Congress, we have:
  --Funded more than $49 billion in benefits to unemployed workers;
  --Created nearly 318,000 summer youth job opportunities;
  --Invested $500 million in training and research for emerging ``green 
        jobs'' and another $220 million to help workers pursue careers 
        in health care and other high-growth industry sectors;
  --Created more than 18,000 new community service employment 
        opportunities for seniors;
  --Provided job-related services to more than 3.2 million unemployment 
        insurance claimants;
  --Provided direct assistance to more than 190,000 unemployed workers 
        and their families seeking affordable health coverage and the 
        COBRA subsidy.
    While these efforts are helping Americans during these difficult 
times, they are clearly not enough. The unemployment rate remains 
persistently and unacceptably high. This administration wants to ensure 
that investments in job creation will continue until the labor market 
fully recovers from the economic downturn. The president has proposed a 
robust package to spur job creation, including new investments in small 
business, infrastructure, and clean energy. In addressing the need for 
additional jobs legislation, the administration supports additional 
job-creating investments in key DOL initiatives:
    First, last summer the ARRA created more than 300,000 summer jobs 
for at-risk youth in 2009, addressing an alarmingly high youth 
unemployment rate. Based on that experience, we believe that local 
areas can expand the program to create up to 350,000 jobs this summer, 
providing work experience to help young people build their futures and 
income their families can use in a weak economy. We can accomplish this 
with an additional $1.2 billion investment in summer and youth 
employment. In keeping with our approach to WIA reauthorization, this 
amount should include $150 million for competitive grants to support 
innovative programs and build knowledge of what strategies, including 
paid work experience, produce the best educational and employment 
outcomes for disconnected youth.
    Second, training programs that bring workers into contact with 
employers form key partnerships that will result in people getting 
jobs. We support an additional $500 million to expand on-the-job 
training, refresh the skills of the long-term unemployed, and link them 
to real employment opportunities as the economy rebounds.
    Third, through grant programs we will be prioritizing training in 
emerging industries where we know there are jobs, such as clean energy, 
an area where we see a lot of potential for additional training 
efforts. The administration supports an additional $300 million to 
continue two ARRA programs--Pathways Out of Poverty Grants ($225 
million) and Energy Training Partnerships ($75 million). For both of 
these programs, we received many more quality applications than we were 
able to fund. As a result, additional resources would allow us to 
quickly fund these high-quality programs.
    We also applaud the action that has been taken to extend 
unemployment benefits and health insurance. These programs ensure a 
continued safety net for individuals who cannot find jobs, and the 
benefits help stimulate the economy by putting money back in workers' 
pockets who then spend it in their local communities. These programs 
are vital, and we look forward to working with Congress to extend the 
duration of these programs.
    We must work together to respond to the plea from millions of 
Americans for job opportunities and assistance. That means that we need 
to create new and better jobs for the 21st century economy. And because 
it is too easy to exploit workers when jobs are scarce, we need to be 
vigilant in protecting the rights and safety of workers. At DOL, my 
strategic vision is to provide good jobs for everyone. Here are some of 
the ways that we define a good job:
  --A good job can support a family by increasing incomes, narrowing 
        the wage gap and allowing workplace flexibility.
  --A good job is safe and secure and gives people a voice in the 
        workplace.
  --A good job is sustainable and innovative, for example a green job.
  --A good job will help rebuild a strong middle class.
  --A good job provides access to a secure retirement and to adequate 
        and affordable health coverage.
    The resources requested in our fiscal year 2011 budget will help to 
make the vision of good jobs for everyone a reality. They will build on 
and leverage the job creation efforts begun with ARRA and continued 
with the fiscal year 2010 appropriation. I am committed to doing my 
best to see that the new jobs created with the economic recovery are 
good jobs that are open to the diverse group that represents the 
workers of the future.
                    preparing for jobs of the future
    DOL is looking to prepare workers with the tools they need to 
succeed in the 21st century economy, and for innovative ways to promote 
economic recovery. The fiscal year 2011 budget request for the 
Department's Employment and Training Administration (ETA) is $10.9 
billion in discretionary funds and 1,080 FTE, not including the 148 FTE 
associated with the proposed legislation for foreign labor 
certification application fees. Through innovative program strategies, 
the budget request for ETA will allow DOL to increase the skills of the 
American workforce, while addressing all segments of the population.
Innovation Funds
    Reflecting the urgent need to prepare workers for 21st century 
jobs, for the first time in more than a decade, the fiscal year 2011 
budget proposes a significant increase in funding for the Workforce 
Investment Act (WIA) grant programs for adults, dislocated workers, and 
youth. The budget requests $3.4 billion for these programs, an increase 
of $209 million above the fiscal year 2010 level. However, the 
additional resources are inextricably linked to reform.
    In keeping with the administration's WIA reauthorization plan, a 
percentage of the funds appropriated for adults, dislocated workers and 
youth will be reserved for the budget's proposed new Partnership for 
Workforce Innovation, which encompasses $321 million of funding in the 
Departments of Labor and Education. At DOL, two new innovation funds 
would provide competitive grants to State and local entities that can 
demonstrate new and promising ways of preparing individuals for jobs of 
the future. There are funds for adults and youth. For adults, the $108 
million Workforce Innovation Fund would be funded through a 5 percent 
reserve from the WIA Adult and Dislocated Worker Programs. Innovation 
funding will be used, in part, to support and test ``learn and earn'' 
strategies like on-the-job training and apprenticeships. For youth, the 
$154 million Youth Innovation Fund will be funded by a 15 percent 
reserve of the funds appropriated for Youth; the funds will support 
summer and year-round employment opportunities and ``work experience 
plus'' programs for out-of-school youth. We are confident that the 
partnership for workforce innovation will create strong incentives for 
change that will improve the effectiveness of the WIA programs, and 
provide incentives for States and localities to break down program 
silos and improve service delivery.
Green Jobs
    The demand for green job training opportunities is enormous--and 
DOL has been unable to keep pace with the record number of applications 
for grants. We believe that this unprecedented level of interest 
represents the need for resources that focus on green jobs training, 
which complements job creation efforts. We also believe this 
demonstrates the need to assist people who are already working, but who 
may be underemployed, to gain skills--and portable credentials--that 
will help them move into better, higher-paying jobs in emerging 
sectors.
    The budget requests $85 million for the Green Jobs Innovation Fund, 
an increase of $45 million (89 percent) from the fiscal year 2010 
appropriation. The request will provide training opportunities for some 
14,110 workers. These funds will support DOL's efforts to achieve its 
high-priority performance goal in the employment and training arena, 
which is aimed at increasing opportunities for America's workers to 
acquire the skills and knowledge to succeed in a knowledge-based 
economy (and includes training more than 120,000 Americans for green 
jobs by June 2012). The budget will also complement the competitive 
grant awards made through the $500 million appropriation included for 
high-growth and emerging industry sectors under ARRA, and the $40 
million provided in the fiscal year 2010 appropriation.
YouthBuild
    The fiscal year 2011 budget includes $120 million, an increase of 
$17.5 million (17 percent) for YouthBuild to provide an estimated 230 
competitive grants to local organizations for the education and 
training of approximately 7,450 disadvantaged youth age 16-24. Under 
these grants, youth will participate in classroom training and learn 
construction skills by helping to build affordable housing. In fiscal 
year 2011, DOL will continue the ``green'' transition of YouthBuild by 
encouraging connections with other Federal agencies involved in 
creating green jobs--such as the Departments of Energy and Housing and 
Urban Development--in order to leverage resources and new ``green'' 
opportunities for YouthBuild participants.
Transitional Jobs
    The fiscal year 2011 budget proposes that $40 million for second-
year funding to demonstrate and evaluate transitional job program 
models, which combine short-term subsidized or supported employment 
with case management services to help individuals with significant 
employment barriers obtain the skills needed to secure unsubsidized 
jobs. The initiative, which is a critical part of our jobs agenda, will 
target noncustodial parents to strengthen their workforce skills and 
experience, and help the children who rely on them for support. DOL is 
carrying out this demonstration collaboratively with other Federal 
agencies, such as the Departments of Health and Human Services and 
Justice. In partnership with these agencies, we are working to develop 
and implement a rigorous evaluation strategy for this demonstration.
Strengthening Unemployment Insurance Integrity and Promoting Re-
        employment
    The severity of the recession has placed great stress on the 
Unemployment Insurance (UI) system, which has paid out unprecedented 
amounts of unemployment compensation. This administration is committed 
to protecting the financial integrity of the UI system, and helping 
unemployed workers return to work as swiftly as possible. In addition 
to providing the funding that States rely on to administer this 
important safety net program, our approach includes:
  --A package of legislative changes that would prevent, identify, and 
        collect UI overpayments and delinquent employer taxes. We 
        estimate that these legislative proposals would reduce 
        overpayments by $2.632 billion and employer tax evasion by $282 
        million over 10 years (net of the income tax offset).
  --A request of $55 million (an increase of $5 million over the fiscal 
        year 2010 level) in discretionary funding to support 
        Reemployment and Eligibility Assessments, which include in-
        person interviews at One-Stop Career Centers with UI 
        beneficiaries to discuss their need for re-employment services 
        and their continuing eligibility for benefits. In fiscal year 
        2011, this investment, combined with the $10 million request 
        included in State administration, will help 710,000 UI 
        beneficiaries find jobs faster. It is expected to save $2.3 
        billion over a 10-year period.
    We urge the Congress to act on these important proposals to 
strengthen the financial integrity of the UI system and help unemployed 
workers return to work.
Senior Community Service Employment Program (SCSEP)
    The fiscal year 2011 budget proposes $600.5 million for the SCSEP, 
which will support some 61,900 slots for low-income seniors in part-
time, minimum wage community service jobs. The request continues 
funding at the base amount of the fiscal year 2010 appropriation. As 
you know, in fiscal year 2010 the Congress provided a special multi-
year appropriation of $225 million to help low-income seniors facing 
special economic challenges, asking that we allocate those funds within 
45 days of enactment. In January 2010, DOL moved quickly to award these 
funds to offer immediate employment opportunities.
Job Corps
    The budget includes $1.7 billion to operate a nationwide network of 
124 Job Corps centers in fiscal year 2011. Job Corps provides training 
to address the individual needs of at-risk youth and equip them with 
the skills they need to enter the world of work. The fiscal year 2011 
budget sets forth an ambitious agenda to reform and improve the Job 
Corps program's performance. We have begun this agenda in fiscal year 
2010, which includes:
  --Fully integrating Job Corps with DOL's other employment and 
        training programs, with the return of the program to the ETA.
  --A rigorous and comprehensive review of Job Corps center operations 
        and management to identify areas most in need of reform.
  --Remediation of program performance shortfalls at the lowest 
        performing centers.
  --Analysis of contracting practices and procedures to identify 
        potential savings and strategies to improve cost effectiveness.
    We are optimistic that our reform agenda will identify ways to 
produce better outcomes at a lower cost. To the extent that our efforts 
produce long-run cost avoidance, rather than near-term savings, the 
budget includes appropriations language that would allow the transfer 
of up to 15 percent of the $105 million appropriation for construction 
to meet center operational needs. This authority was first provided by 
Congress in ARRA. Job Corps received $250 million from ARRA, which it 
is using to fund shovel-ready construction projects that stimulate job 
growth in center communities. In addition, ARRA funds are promoting 
environmental stewardship in Job Corps by supporting development of 
green-collar job training, technology enhancements, and fleet 
efficiency.
Veterans' Employment and Training Service (VETS)
    We know returning veterans can contribute greatly to our economy. 
For DOL's VETS, the fiscal year 2011 budget request is $262 million and 
234 FTE. The fiscal year 2011 budget includes $41 million for the 
Homeless Veterans Reintegration Program, an increase of $5 million (14 
percent) more than fiscal year 2010. The request will allow the program 
to provide employment and training assistance to more than 25,000 
homeless veterans, and increase our reach to homeless women veterans. 
In addition, the budget requests $8 million for the Transition 
Assistance Program (TAP) for spouses and family members (including 
those with limited English proficiency), an increase of $1 million (14 
percent) from fiscal year 2010. TAP Workshops will enroll roughly an 
additional 15,000 participants worldwide in fiscal year 2011, and play 
a key role in reducing jobless spells and helping service members 
transition successfully to civilian employment.
State Paid Leave
    Workforce and workplace changes have made it increasingly difficult 
for working families to meet their work and family responsibilities. 
The vast majority of American workers have family care-giving 
responsibilities outside of work and no full-time caregiver at home. 
Nearly half of private-sector workers do not have paid sick leave to 
care for themselves, and even fewer have leave available to care for 
another family member when they are ill. Millions of workers risk 
losing pay--and even their jobs--when they are sick or their children 
are sick. No worker should be placed in that position. Similarly, most 
workers do not have paid family leave--for example, to care for a 
newborn or newly adopted or fostered child.
    State programs that provide for paid leave offer a solution for 
working families who cannot afford to take unpaid leave but need to 
take time off work to care for a newborn, bond with a new child or care 
for themselves and their families. The fiscal year 2011 budget requests 
$50 million for a State Paid Leave Fund to provide grants to help 
States establish paid leave programs.
                 protecting workers' rights and safety
    In the jobs of the future as well as in jobs of the present, 
workers should be safe and their rights should be protected. To achieve 
our goal of rebuilding the middle class, we need to level the playing 
field and restore fair play for all working people. The fiscal year 
2011 budget continues our commitment to protect the rights and safety 
of workers by hiring additional enforcement personnel and strengthening 
our regulatory efforts. The request includes $1.7 billion in 
discretionary funds and 10,957 FTE for our worker protection 
activities. This funding level is $67 million (4 percent) and 177 FTE 
above the fiscal year 2010 appropriation. The budget returns the worker 
protection programs to the fiscal year 2001 staffing levels or greater, 
and builds on the progress begun in fiscal year 2010 to restore 
capacity in our worker protection programs.
Employee Misclassification Initiative
    Employers who misclassify their employees as independent 
contractors often avoid paying the minimum wage and overtime. They 
evade payroll taxes, and often do not pay for workers' compensation or 
other employment benefits. As a result, employees are denied the 
protections and benefits of this Nation's most important employment 
laws, and their employers gain an unfair advantage in the market place. 
Employees are particularly vulnerable to misclassification in these 
difficult economic times. The fiscal year 2011 budget requests $25 
million for a multi-agency initiative to strengthen and coordinate 
Federal and State efforts to enforce statutory prohibitions, and 
identify and deter employee misclassification as independent 
contractors.
    For the Wage and Hour Division (WHD), the fiscal year 2011 budget 
requests an additional $12 million and 90 new investigators to expand 
its efforts to ensure that workers are employed in compliance with the 
laws we enforce. The funds will support targeted investigations that 
focus on industries where misclassification is most likely to lead to 
violations of the law, and training for investigators in the detection 
of workers who have been misclassified.
    The Misclassification Initiative also will support new, targeted 
ETA efforts to recoup unpaid payroll taxes due to misclassification and 
promote the innovative work of States on this problem. This initiative 
includes State audits of problem industries supported by Federal 
audits, and $10.9 million for a pilot program to reward the States that 
are the most successful (or most improved) at detecting and prosecuting 
employers that fail to pay their fair share of taxes due to 
misclassification and other illegal tax schemes that deny the Federal 
and State UI Trust Funds hundreds of millions of dollars annually.
    In addition, the Misclassification Initiative includes:
  --For the Office of the Solicitor, $1.6 million and 10 FTE to support 
        enforcement strategies, with a focus on coordination with the 
        States on litigation involving the largest multi-State 
        employers that routinely abuse independent contractor status.
  --For the Occupational Safety and Health Administration (OSHA), 
        $150,000 to train inspectors on worker misclassification 
        issues.
  --Legislative changes that will require employers to properly 
        classify their workers, provide penalties when they do not, and 
        restore protections for employees who have been classified 
        improperly.
    With these efforts, we intend to reduce the prevalence of 
misclassification and secure the protections and benefits of the laws 
we enforce. This effort strikes at the core of DOL's mission--and the 
hard working people of this country deserve no less.
Wage and Hour Division
    I take the failure to pay workers the wages that they have earned 
very seriously, and I am committed to enforcing all employment laws--
particularly those related to payment of the minimum wage and overtime. 
Workers deserve this money, and it will bring new resources to low-
income households where most of it will be spent and help reinvigorate 
local communities. As I noted earlier, we have already increased wage 
hour enforcement staffing. At 1,672 FTE, the staffing level for the WHD 
requested in fiscal year 2011 is 29 percent higher than the fiscal year 
2009 level. As new investigators grow into their jobs, they will be an 
even stronger force for securing compliance with basic labor standards 
protections. The fiscal year 2011 budget request of $244.2 million for 
WHD will support targeted investigations, meaningful compliance 
assistance, and--in support of DOL's high-priority performance goals--
reduce repeat violations of minimum wage, overtime, and workplace 
safety laws.
Office of Federal Contract Compliance Programs
    I am also committed to vigorously enforcing the laws that combat 
discrimination, for our goal is to protect workers who--ultimately--are 
America's most important asset. The fiscal year 2011 request for the 
Office of Federal Contract Compliance Programs (OFCCP) is $113.4 
million and 788 FTE, an increase of $8 million from the fiscal year 
2010 level. The 2010 appropriation has allowed OFCCP to return to 2001 
staffing levels, and the 2011 request will make it possible to maintain 
that level.
    The fiscal year 2011 budget will allow OFCCP to broaden its 
enforcement efforts and focus on identifying and resolving both 
individual and systemic discrimination. OFCCP will focus its attention 
on a broad range of issues that arise in individual cases, including 
harassment, retaliation, termination, and failure to promote. Since 
Federal contractors are obligated to self-audit and correct identified 
problems, OFCCP will step up monitoring of this element of contractor 
compliance. As part of OFCCP's enforcement of Executive Order 11246, 
Equal Employment Opportunity, a renewed emphasis on conducting 
construction reviews is planned.
Office of Workers' Compensation Programs
    The fiscal year 2011 discretionary budget request for 
administration of the Office of Workers' Compensation Programs (OWCP) 
totals $127.3 million and 921 FTE to support the Federal Employees' 
Compensation Act (FECA) ($103.5 million), the longshore and harbor 
workers' compensation program ($17.2 million) and $6.6 million for the 
Division of Information Technology Management and Services (DITMS). 
DITMS provides information technology general services support for the 
programs that were previously within the Employment Standards 
Administration (ESA) and was previously funded in ESA's program 
direction and support activity. DITMS was transferred to OWCP with the 
understanding that it would provide the same level of IT support. The 
request includes an additional $3.2 million and 9 FTE to address the 
burgeoning workload under the Defense Base Act arising from claims 
associated with injuries to war-zone contract workers in Afghanistan 
and Iraq.
    A high-priority performance goal for fiscal year 2011 will be a 
new, jointly sponsored OWCP and OSHA initiative entitled ``Protecting 
Our Workforce and Ensuring Reemployment'' (POWER). The new program is 
designed to bring a greater focus on the Federal Government as a model 
employer of workers injured on the job and returning to the workplace, 
or for employing workers with disabilities.
    The OWCP budget also includes mandatory funding totaling $53.8 
million and 295 FTE to administer part B of the Energy Employees 
Occupational Illness Compensation Program Act (EEOICPA), and $72.8 
million and 265 FTE for Part E of the Act. EEOICPA provides 
compensation and medical benefits to employees or survivors of 
employees of the Department of Energy and certain of its contractors 
and subcontractors, who suffer from a radiation-related cancer, 
beryllium-related disease, chronic silicosis or other covered illness 
as a result of work at covered Department of Energy contractor 
facilities.
    Lastly, OWCP's fiscal year 2011 budget includes $38.3 million in 
mandatory funding and 198 FTE for its administration of parts B and C 
of the Black Lung Benefits Act, and $58.4 million and 127 FTE in FECA 
Fair Share administrative funding.
Office of Labor-Management Standards
    The fiscal year 2011 budget request for the Office of Labor-
Management Standards (OLMS) totals $45.2 million and 269 FTE. This is 
an increase of $4 million from the fiscal year 2010 level. OLMS 
administers the Labor-Management Reporting and Disclosure Act (LMRDA), 
which establishes safeguards for union democracy and union financial 
integrity and requires public disclosure reporting by unions, union 
officers, employees of unions, labor relations consultants, employers, 
and surety companies. OLMS also administers DOL's responsibilities 
under Federal transit law by ensuring that fair and equitable 
arrangements protecting mass transit employees are in place before the 
release of Federal transit grant funds. The fiscal year 2011 budget 
includes an additional $2.5 million to allow OLMS to modernize an 
aging, mission-critical information technology system. This project 
will increase transparency to the public, reduce reporting burden and 
administrative costs, and improve program efficiency.
Employee Benefits Security Administration
    DOL's Employee Benefits Security Administration (EBSA) protects the 
integrity of pensions, health plans, and other employee benefits for 
more than 150 million people. The fiscal year 2011 budget request for 
EBSA is $162 million and 941 FTE, an increase of $7.1 million (5 
percent) and 31 FTE compared to the fiscal year 2010 level. The 
additional resources will support a significantly greater demand for 
regulatory guidance, research, outreach, education, and assistance. The 
budget will improve EBSA's ability to ensure America's workers, 
retirees and their families have access to a secure retirement and 
affordable health insurance. I am very proud of the work this agency 
has done under ARRA, implementing a new appeal program related to an 
individual's appeal of the denial of his or her COBRA premium 
assistance, and responding to more than 190,000 inquiries and 
complaints from unemployed workers and their families seeking 
affordable health coverage and the COBRA subsidy; hosting more than 2.5 
million visitors to our dedicated COBRA Web site; and conducting 826 
outreach events related to the new program, including compliance 
assistance Web casts and seminars and on-site visits with workers 
facing layoff at their place of employment.
OSHA
    I am proud that OSHA is restoring its capacity to strongly enforce 
statutory protections, provide technical support to small businesses, 
promulgate safety and health standards, strengthen the accuracy of 
safety and health statistics, and ensure that workers know about the 
hazards they face and their rights under the law. The fiscal year 2011 
budget request for OSHA is $573.1 million and 2,360 FTE, an increase of 
$14.5 million and 25 FTE more than the fiscal year 2010 level. The 
budget redirects 35 FTE from compliance assistance to enforcement and 
supports DOL's high-priority performance goal to reduce workplace 
injuries by targeting establishments and industries with the highest 
injury, illness, and fatality rates--with the goal of reducing by 2 
percent per year the number of fatalities associated with the four 
leading causes of workplace death in OSHA's jurisdiction: falls; 
electrocution; caught in or between; and struck by. The request also 
includes an additional $4 million to expand OSHA's regulatory program, 
$1 million for consultation programs focused on small businesses, and 
$1.5 million for State plans. These additional resources will support a 
vigorous enforcement presence in the Nation's workplaces and ensure 
that hard-to-reach workers know about their rights and the hazards they 
face.
Mine Safety and Health Administration (MSHA)
    MSHA is celebrating 40 years of legislation aimed at improving 
working conditions for America's workers, and last year, MSHA recorded 
the safest year in mining in U.S. history. The fiscal year 2011 budget 
requests $360.8 million and 2,430 FTE and supports MSHA's comprehensive 
strategy to curb debilitating and potential fatal diseases caused by 
coal mine dust. The budget includes an increase of $2.3 million and 21 
FTE for the metal and nonmetal mine safety and health budget activity 
to bolster enforcement and conferencing. The budget will ensure a 100 
percent completion rate for all mandatory safety and health 
inspections; support MSHA's enhanced enforcement initiatives, which 
target patterns of violation, flagrant violators, and scofflaws; and 
allow MSHA to promulgate new standards related to reducing health 
hazards associated with exposure to coal mine dust and crystalline 
silica. The request also allows MSHA to continue its work to enhance 
mine rescue and emergency operations and will support DOL's high-
priority performance goal--which targets the most common causes of 
fatal accidents and is aimed at reducing workplace fatalities at mining 
sites by 5 percent per year based upon a rolling 5-year average.
Office of the Solicitor
    The Office of the Solicitor (SOL) provides the legal services that 
support DOL, including DOL's enforcement programs. The fiscal year 2011 
budget includes $130.4 million and 658 FTE for SOL, an increase of $5.2 
million and 22 FTE from fiscal year 2010. This amount includes $122.5 
million in discretionary resources and $7.9 million in mandatory 
funding. The budget includes an increase of $2 million to support an 
additional 12 FTE to handle increased Mine Safety and Health 
enforcement litigation resulting from the substantial increase in the 
number of cases at the Federal Mine Safety and Health Review 
Commission. The fiscal year 2011 budget will support SOL's enforcement 
litigation, issuance of timely legal opinions, legal support for 
rulemaking, and increased efficiency through its acquisition of legal 
technology.
Pension Benefit Guaranty Corporation
    For administrative expenses of the Pension Benefit Guaranty 
Corporation (PBGC), the fiscal year 2011 budget requests $466.3 million 
and 942 FTE. The budget includes an increase of $14.7 million for the 
PBGC's benefit determination process to cover the projected long-term 
costs of absorbing participants of several very large pension plans 
that terminated in late fiscal year 2009. In addition, $200,000 and 1 
FTE are requested to increase the capacity of the Office of Inspector 
General to support its audit, investigation, and training activities.
                ensuring accountability and transparency
    Spending tax dollars wisely helps DOL achieve our mission on behalf 
of America's workers, and builds trust among our stakeholders. We are 
committed to ensuring a sense of responsibility, accountability, and 
transparency at DOL. Our fiscal year 2011 budget supports those goals.
    Built around my vision of good jobs for everyone, DOL is currently 
updating its strategic plan, which will be published by September 30, 
2010 and cover fiscal years 2010-2016--a span during which the 
Department will mark its 100th anniversary of service to America's 
workers.
    Over the next several months, we will be reaching out to a broad 
range of stakeholders--including Congress--to solicit their input and 
perspective on a new strategic goal framework that will govern all 
aspects of work in DOL.
    Our strategic planning efforts dovetail nicely with President 
Obama's commitment to improve the performance of the Federal Government 
through three complementary performance management strategies. They 
are:
  --Use performance information to lead, learn, and improve outcomes;
  --Communicate performance coherently and concisely for better results 
        and transparency; and
  --Strengthen problem-solving networks.
    As part of this process, DOL's fiscal year 2011 budget articulates 
five ambitious--but realistic--high-priority performance goals that we 
will strive to achieve in the next 18 to 24 months. These goals--which 
I've touched on above--offer an opportunity for DOL to achieve 
remarkable and lasting benefits for the American people. Our high-
priority performance goals will focus the agencies on the most critical 
needs affecting the safety, health, and economic security of workers. 
We are working with our colleagues in the Office of Management and 
Budget to establish an action plan for implementation of the 
Department's high-priority performance goals--including quarterly 
milestones that we will use to gauge the progress and success of our 
implementation strategy.
A Strengthened Commitment to Program Evaluation
    In the 2011 budget, the administration encouraged Departments to 
volunteer for a new program evaluation initiative designed to 
strengthen rigorous, objective assessments of existing Federal programs 
to help improve results and better inform funding decisions. DOL is 
proud to be one of a limited number of agencies selected to pilot this 
new approach in the fiscal year 2011 budget. The budget includes $40.3 
million to fund 5 rigorous evaluations and demonstrations of workplace 
safety enforcement and workforce development services. Most are 
demonstrations that would provide program services, coupled with 
rigorous evaluations of the strategies. While the evaluations are still 
in the design phase, we expect a substantial portion of this funding 
will go to States, workforce agencies, or for participant services. The 
five evaluations, which will be shaped and guided by DOL, working 
closely with the Office of Management and Budget and Council of 
Economic Advisors, will cover the following:
  --WIA performance measures;
  --Effects of job counseling;
  --Using linked administrative data to evaluate workforce programs;
  --Incentives for dislocated workers; and
  --Effects of OSHA inspection strategies.
    In addition, the budget includes $10 million in the departmental 
management account and $11.6 million in the training and employment 
services account to continue to pursue a robust, DOL-wide evaluation 
agenda. To effectively manage the new evaluation resources, DOL is 
establishing a Chief Evaluation Office in fiscal year 2010 to directly 
manage the Department-wide evaluation resources, and work with the 
other components of the Department to ensure a high level of rigor and 
quality in the evaluations they support.
Workforce Data Quality Initiative
    The fiscal year 2011 budget requests $13.8 million for second-year 
funding for the DOL's Workforce Data Quality Initiative, which we are 
carrying out in partnership with the Department of Education. The 
initiative provides competitive grants to develop longitudinal data 
systems that have the capability to link workforce and education data 
collected as individuals progress through the education system and into 
the workforce. These data systems can provide valuable information to 
consumers, practitioners, policymakers, and researchers about the 
performance of education and workforce development programs. In fiscal 
year 2010, up to 12 States will receive grants to implement 
longitudinal databases over a 3-year period. The fiscal year 2011 
request will support participation of up to 12 additional States in the 
initiative.
                             other programs
Bureau of Labor Statistics
    Through its 21 economic programs, the Bureau of Labor Statistics 
(BLS) produces some of the Nation's most sensitive and important 
economic data. The fiscal year 2011 budget proposes $645.4 million and 
2,465 FTE for BLS, an increase of $34 million (6 percent) from the 
fiscal year 2010 level. The budget proposes several initiatives to 
modernize and improve the accuracy of BLS survey data. For example:
  --An increase of $27.3 million is requested to improve the data 
        quality of the Consumer Price Index (CPI) and Consumer 
        Expenditure (CE) Survey, including work to support the Census 
        Bureau in its development of a supplemental poverty measure.
  --An increase of $4.9 million is included to expand the Occupational 
        Employment Statistics (OES) program to annual data reporting 
        from a subset of establishments, making possible year-to-year 
        comparisons.
    In addition, the fiscal year 2011 budget proposes new, cost-
effective data collection strategies that would not diminish the 
quality of the data that BLS publishes. For example:
  --A restructuring of the way in which the current employment 
        statistics produces State and metropolitan area data estimates 
        would save $5 million annually.
  --An alternative, model-based methodology will allow BLS to produce 
        locality pay data at a lower cost. The new approach will 
        eliminate the Locality Pay Surveys, ensure no reduction in the 
        data quality, and save $10 million annually.
    Finally, the fiscal year 2011 budget proposes to eliminate the 
international labor comparisons program. The savings from this 
elimination and the two-cost effective data collection strategies 
mentioned above will be used to partially finance the OES, CPI, and CE 
enhancements.
    We look forward to working with Congress to implement the fiscal 
year 2011 budget strategies to improve and modernize the critically 
important economic data produced by BLS.
Office of Disability Employment Policy (ODEP)
    Even though the majority of workers with disabilities are prepared, 
willing, and able to work, they remain a largely untapped labor pool. 
We know that people with disabilities are out of the labor force at a 
much higher rate than their counterparts without disabilities, and we 
are launching innovative partnerships to increase their employment 
opportunities. For example, along with the Office of Personnel 
Management (OPM), in April DOL is hosting a national hiring event for 
people with disabilities with participation by numerous Federal 
agencies and human resources professionals. Also, along with the 
Departments of Defense and Veterans Affairs, we have relaunched an 
improved national resource directory Web site for America's wounded 
warriors, their caregivers, other members of the veterans community, 
and employers. By visiting www.nationalresourcedirectory.gov, customers 
can now access thousands of services and resources at the national, 
State, and local levels to support recovery, rehabilitation, and 
community reintegration for veterans.
    The fiscal year 2011 budget requests $39 million and 52 FTE for 
ODEP to combat the problem by developing policy and policy strategies 
that, when implemented by ODEP's Federal, State, and local partners 
that include public and private-sector employers, will:
  --Increase physical and programmatic access for individuals with 
        disabilities in WIA partner programs and at One-Stop Career 
        Centers, through a partnership between ETA and the Department 
        of Education.
  --Increase the employment of people with disabilities within the 
        Federal Government, in partnership with OPM.
  --Make workplaces more inclusive and welcoming to both transitioning 
        youth and adults with disabilities.
  --Expand access to employment supports--like technology and 
        transportation. These services are crucial to the success of 
        all workers in the job market, especially those with 
        disabilities. ODEP will utilize ongoing partnerships with the 
        Departments of Commerce, Transportation, and Education; the 
        General Services Administration; the National Science 
        Foundation; businesses; technology designers, developers and 
        manufacturers; and the disability community to ensure that 
        emerging workplace information and communication technology is 
        universally available.
  --Spur new strategies for integrated employment opportunities for 
        workers with disabilities within minority, women, and veteran-
        owned businesses. For example, ODEP's ``Add Us In'' initiative 
        will fund a competitive grant to encourage small businesses, 
        particularly minority-owned businesses, to increase the number 
        of people with disabilities hired by such employers.
    The request includes $12 million for ODEP to continue its 
partnership with ETA on the Disability Employment Initiative, which 
strives to increase the capacity and accountability of the One-Stop 
Career system to provide accessible programs and services to 
individuals with disabilities. A companion request of $12 million is 
contained within the ETA budget. Our goal is to ensure that good jobs 
for everyone includes workers with disabilities.
Bureau of International Labor Affairs (ILAB)
    One of my goals as Secretary of Labor is to help American workers 
build the foundation for a sustained recovery of the global economy, 
while contributing to a more balanced pattern of global trade in the 
future and respect for workers' rights around the world. The fiscal 
year 2011 budget requests $115 million for the ILAB, an increase of $22 
million and 10 FTE from the fiscal year 2010 level. The additional 
resources will allow ILAB to significantly expand support for 
innovative, successful programs that address root causes of violations 
of workers' rights in developing country trading partners. Of the 
increased resources, $20 million will be added to the $6.5 million in 
funding that has been provided by Congress since fiscal year 2008 for 
such workers rights initiatives. Given the challenges of the global 
economic crisis, we believe that these programs are more necessary than 
ever to prevent and address incidents of labor exploitation abroad.
    The additional $2 million increase in resources will be used to 
increase oversight, monitoring and reporting on labor rights in 
countries that have free trade agreements and trade preference programs 
with the United States and on reporting and analysis of progress 
countries are making to eliminate the worst forms of child labor. We 
anticipate adding 10 new FTE for these purposes.
    The fiscal year 2011 budget will support DOL's high-priority 
performance goal to make measurable improvements in worker rights and 
livelihoods and progress against the worst forms of child labor in at 
least eight countries by the end of fiscal year 2011. The budget will 
also continue the Bureau's longstanding commitment to building 
international relationships that improve global working conditions and 
strengthen labor standards around the world.
Women's Bureau
    This year, the Women's Bureau will mark 90 years of work 
formulating standards and policies that promote the welfare of wage-
earning women and advance their opportunity for fair and profitable 
employment. The Bureau's efforts to provide women in the workplace with 
the information and tools needed to obtain good jobs and economic 
security for themselves and their families is invaluable in this time 
of economic recovery.
    The Bureau's fiscal year 2011 budget includes $12.3 million and 58 
FTE, which is $700,000 above the fiscal year 2010 enacted level. This 
budget will allow the Women's Bureau to continue and increase its role 
of conducting research, outreach, and evaluations of programs and 
policies affecting working women. The budget will also allow the Bureau 
to work with the Bureau of Labor Statistics to improve data collection 
on work-family responsibilities, and support my vision of good jobs for 
everyone.
                               conclusion
    Too many Americans are ready, willing, and able to work--but cannot 
find a job. The fiscal year 2011 budget for DOL will help spur new and 
better job opportunities, foster safe workplaces that respect workers' 
rights, and ensure American workers are ready for 21st century jobs. I 
am committed to achieving the goal of Good Jobs for Everyone, and I 
look forward to working with the members of this subcommittee to make 
that vision a reality.
    Mr. Chairman, this is an overview of the programs proposed at DOL 
for fiscal year 2011.
    I am happy to respond to any questions that you may have.

    Senator Harkin. Thank you very much, Madam Secretary.
    I meant to say, before you started, and I will say it now, 
that the record will remain open, prior to your statement, for 
an opening statement by Senator Cochran or any other Senators 
who wish to submit such a statement.

                           WORKER PROTECTION

    Madam Secretary, thank you again for your great leadership. 
And let me just go over a couple things.
    The worker protection measures that you have talked about 
are heartwarming. It's about time that we recognize what has 
happened in the past. The Wage and Hour Division, which 
enforces minimum wage and overtime pay protections, lost 30 
percent of its staff between fiscal year 2000 and fiscal year 
2008. That loss of inspectors led to a drop of 36 percent in 
the number of inspections conducted by the Wage and Hour 
Division.
    In the last 8 years, 2000 to 2008, the Occupational Safety 
and Health Administration (OSHA) issued only 3 significant 
safety and health regulations, two of which were issued as a 
result of court orders. The previous administration killed the 
ergonomics regulation, which we debated here for a long time, 
and then a plan was presented to lead to reduced ergonomic 
injuries. Well, that was fine. The problem is the plan was 
never implemented. So, your budget, the 2011 budget request, 
will provide OSHA the resources it needs to address these 
regulatory issues that have been so neglected in the past.
    Also, your emphasis on green jobs--let's face it, that is 
the future. And young people have to be trained for those green 
jobs.

                    DISABILITY EMPLOYMENT INITIATIVE

    One thing I wanted to cover with you is the Disability 
Employment Initiative that we started last year, the $24 
million. And you--you're continuing that this year. I 
appreciate that. ETA and ODEP submitted a report last month on 
how they will implement this initiative. And I want to 
compliment your staff on developing a thoughtful plan that I 
believe will lead to improved services and outcomes for people 
with disabilities.
    Just as a background--in February 2010, the labor force 
participation rate of individuals with disabilities was 21.9 
percent. Think about that. People with disabilities who want to 
work, who can work, had a--well that's 78 percent, I guess, 
unemployment rate. That's just unconscionable. Right now there 
are navigators--disability program navigators for more than 40 
States.
    In the March 10 report by your inspector general which was 
titled ``Information on DOL's Efforts to Access for Persons 
with Disabilities to the One-Stop Career System,'' a couple of 
points really stand out. When One-Stop Centers connected 
individuals with disabilities with jobs, employers were just as 
likely to keep them as a nondisabled worker. However, 
individuals with disabilities were less likely to be connected 
with jobs in the first place. So, what this tells me is, we've 
got to do a better job of making these connections. Once they 
were connected with employers, the data shows that they stayed 
on the job and were kept on the job just as much as nondisabled 
people.

                     DISABILITY PROGRAM NAVIGATORS

    Now, the other thing is that the report suggests that the 
navigators, the disability program navigators, are really part 
of the answer. One-Stop Centers that had access to disability 
program navigators did a better job, according to this study, 
of connecting individuals with disabilities with jobs than 
those without navigators. So, again, that argues to make sure 
that we get more navigators out there.
    Lastly, the report noted that DOL does not have 
quantifiable goals or measures that assess DOL's progress in 
ensuring comprehensive access in One-Stops for individuals with 
disabilities. My staff tells me that DOL now is considering 
some options on this issue, so I encourage you to--hopefully, 
to get those done. And, just consider the Inspector General's 
report in asking your staff to again focus on these One-Stops 
with the navigators. How do we get more people with 
disabilities in, to connect them, and use the navigators a 
little more than what we were doing in the past to get people 
with disabilities jobs? So, I ask you to, look at that. I don't 
need a response on that.
    Secretary Solis. Yes, Mr. Chairman, I know that with the 
amount of money that you have provided us with, for both the 
ODEP and with ETA, we are going to focus in on this initiative. 
And we do realize that it is something that should be more 
comprehensive in nature. And so, we will be testing this and 
working in certain regional areas to make sure that we're doing 
the right thing, that we have the right tools available so we 
can make this happen, and then, hopefully, come back and expand 
the program.
    So, I agree with you, we should be doing more. And the 
success is really going to mean whether the quality of service 
that the navigators provide is made available to these clients, 
and, hopefully, that will result in job placement.
    I do want to tell you about an initiative that we're 
planning with OPM, with Director Berry. We have a big event 
planned with him in April for people with disabilities, to get 
them in Federal employment. And it's going to be carried out 
through our Assistant Secretary, Kathy Martinez, who I hope 
you've had an opportunity to meet with. A very dynamic 
individual. If you haven't met her, I hope we can arrange for 
that. But, our goal there is to make sure that the Federal 
Government lead by example, and that we do as much as we can to 
begin to employ individuals with disabilities even in our own 
agencies.
    Senator Harkin. Very good. I appreciate that. Look forward 
to continuing to work with you. And I look forward to meeting 
Ms. Martinez and talking with her about this.

                               JOB CORPS

    Let me just shift to Job Corps. Again, I thank you for 
coming out to Iowa--it was a beautiful day. And I have a great 
picture of us throwing shovels of dirt in the air at the Job 
Corps Center. Because of the Recovery Act, we have somewhere 
between 200 and 250 workers there, building these new 
buildings.
    Now, there's one thing I did want to cover with you. Your 
budget suggests that you're expecting the Center to be occupied 
in mid-program year 2011. Well, that says to me around 
December. My staff has been checking with the people in Ottumwa 
and the construction people, and they say that the Center will 
be ready to serve students many months earlier, perhaps around 
May of next year. So, again, I'm wondering about that 6-month 
gap, and I'd ask you to look at that and see if we can't give 
some assurances that, as soon as that new Center's completed, 
assuming that it's done by May, that we can get students in 
there right away, rather than leaving it set until December. 
Can you inform me about that?
    Secretary Solis. Yes. Mr. Chairman, I know that this is of 
great importance to you, and was happy to be out there with 
you, with that groundbreaking ceremony that I attended.
    I wanted to just mention that we have had some changes in 
our program. We finally have a new director in the Job Corps 
program, who I hope that you'll also get a chance to meet. Her 
name is Edna Primrose, and she is also a former employee of the 
Job Corps program. This will help us by having leadership there 
that can help us with the changes and reforms we need to help 
expedite a lot of these projects. And yours is one, of course, 
of particular concern to us.
    I will work with you and your staff in any way that I can 
to see how we can try to expedite this as much as possible. I 
know that the project is currently about 43 percent complete. 
And I, like you, would like to see that we are fully 
operational by the year 2012, if not sooner, and that we have 
available at least 300 slots for students, there.
    So, I want to work with you, and obviously with Jane Oates, 
our Assistant Secretary, who you know, is also very much on top 
of--she's not--I don't think she's here with us----
    Senator Harkin. She's not here.
    Secretary Solis [continuing]. Today. But she, believe me, 
has been just unstoppable----
    Senator Harkin. Right. Right.
    Secretary Solis [continuing]. In helping us get these 
programs moving. And Job Corps is a very, very important 
program. That's one of the programs that I oversee that I have 
had the pleasure of visiting throughout the country. That's one 
of the programs that I personally make an effort to go visit. 
So, it is, I think, one of the premier programs. It's been 
around for so many years, and really doesn't get enough credit 
by the public because they do some very incredible things.

                           DENISON JOB CORPS

    And I want to welcome the students and the participants in 
your area that are here with us today.
    Senator Harkin. Right. I mentioned Kevin Fineran is also 
here, he's the guy that runs the Denison Job Corps Center; and 
Judi Giersdorf, from MDC, who runs these Job Corps Centers 
overseas. So, welcome here, and also to the students that are 
here.
    Excuse me just a minute.
    I was supposed to meet with you later, but I have to rush 
out of here. I have to go to the White House for the signing of 
the healthcare bill. So, I apologize for not being able to meet 
with you later. Now, back to the witness.
    Madam Secretary, I just want to say that, on this issue, 
assuming that we can get this up and ready to go by next May, 
if we need to make some adjustments here to ensure that we have 
the money available, I want to know that. I don't want to see 
the building sitting empty for 6 months or more if we're ready 
to go. So, if we need to make some adjustments. Please advise 
me, yes?
    Secretary Solis. I will be pleased to follow up with you 
Senator----
    Senator Harkin. Okay.
    Secretary Solis [continuing]. Mr. Chairman.
    Senator Harkin. I appreciate that very, very much.

                                  ILAB

    Oh, just one last thing before I turn it over to Senator 
Cochran: ILAB. You mentioned this is a very high priority for 
me. It's something that I've been looking after for a long, 
long time, going back to the Clinton administration. And again, 
your increase is more than welcome, because we didn't have 
those requests in the past, and we always had to add money 
here. But, I think, it's just one of the good things that our 
Nation does, is to forcefully go out and work with 
International Labor Organization and the International Program 
for the Elimination of Child Labor (IPEC).
    Believe me, I've been in a lot of these countries, I've 
looked at this--what they are doing, and I can't think of 
anything that gives a better face for America and what we're 
about in the world than trying to ensure that children are 
protected, that they aren't abused; that they aren't put in 
these unsafe work conditions. Everyplace I've been, the people 
of those countries, and their--to some extent, their 
governments--sometime we have a little problems with 
governments--but, believe me, it's just one of the really great 
things that we do. And so, I'm just glad that you're still 
focusing on that.
    I know there's always a tussle between what you might call 
``workers' rights'' and--for the general workforce--and perhaps 
IPEC, in terms of focusing on child labor. I understand that. I 
guess I would lean more toward looking at child labor, because 
they have no one to stick up for them. No one. And sometimes to 
the extent that adult workers may have certain organizations, 
certain way--certain other things that they can go to, but 
these kids don't. So, I tend to say, ``Let's look at that 
first,'' but you can't forget about the other stuff, but I tend 
to lean more toward making sure that we put a focus on our 
anti-child-labor activities.
    Secretary Solis. Thank you, Mr. Chairman. I know that you 
have been one of our champions on this issue, in helping to 
protect children from the worst forms of child labor. And thank 
you for helping to champion some of the efforts, so that we can 
provide assistance and support through microloan programs to 
help make sure that families don't have to send their children 
into the workforce under, in some, despicable conditions. I 
know that this is something you care very deeply about. And we 
do not want to minimize or take away from our efforts in 
enforcement of child labor laws that are being broken or that 
we feel are egregious. So, we want to do everything we can to 
highlight both of those issue areas.
    And I am very delighted with the new Assistant Secretary we 
have there, Sandra Polaski, who is really helping to set a name 
for ILAB, and returning it, I think, to where it should have 
been some 10 years ago. She is also very deeply involved in 
working with other countries to help foster and expand programs 
that you helped to initiate. The Cambodia experience is the one 
that I refer to, where we get a certain sector of the garment 
industry, all the players there, to understand that we should 
all be abiding by certain standards. And once that happened, 
then markets open up, because there is a level of trust that 
helps both partners. And I think it's something that we were--
we stepped away from in the last few years, and now, with our 
ability to do this because of additional funding, we're going 
to be able to expand that and, hopefully, share with other 
parts of the world what we can do.
    I know that Sandra Polaski has been visiting in Central 
America, and trying to see how we can gain more of our foot in 
the door in countries like El Salvador and Nicaragua and even 
going back to Jordan. So, there's some very exciting things 
happening. And I'd love to be able to sit down and talk to you 
more about it.

                      G20 LABOR MINISTER'S MEETING

    And, as you know, we are also sponsoring an upcoming G20 
Labor Minister's Meeting that'll be held here in Washington for 
the first time. There's a great deal of interest to see other 
countries sharing with us, and we sharing with them our 
practices, what we've learned, what works, but also, more 
importantly, preparing our President and other dignitaries from 
across the G20 countries to put forward a platform that will 
look at worker protection, safety, and job creation. So, 
there's a host of good things that are coming out of ILAB, even 
as small as it is. I'm very proud of the work that they're 
doing.
    Senator Harkin. Well, I'm proud of their work, too. And 
thank you for your leadership on ILAB.
    Secretary Solis. Thank you, Mr. Chairman.
    Senator Harkin. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Welcome, Madam Secretary. We appreciate your service in 
this important undertaking.

                           HURRICANE KATRINA

    When the gulf coast of Mississippi was devastated by 
Hurricane Katrina, the Job Corps Center there was destroyed. 
And it's been 2 years plus since that event, and we still don't 
have a new facility in place. But--there had been a temporary 
facility planned, but a lot of delays have caused it to lag, 
and we had heard it's now scheduled for opening in April. We're 
pleased with that. There is a permanent dormitory in the design 
phase, we're told, but it'll be 2 more years before that's 
finished.
    I would just bring this to your attention, in hopes that 
somebody can get involved and help expedite the repairs, the 
opening of a temporary facility, and, finally, the construction 
of the buildings that were destroyed by the hurricane. Do you 
have any information you could share with us about that?
    Secretary Solis. Yes. Thank you, Senator Cochran. I know 
that this is of a great deal of concern for many people, 
especially because of the area. Hurricane Katrina was so 
devastating that we're still trying to build up other 
facilities there, as well, that the Federal Government is 
targeting. But, this is something that--I know is very 
important. We do have some temporary facilities there 
available. We believe that, by June 20 of this year, we'll be 
able to include another, larger number of students that we can 
service. Right now what we're doing is bringing in, every 2 
weeks, about 20 additional students. So, by the time we hit 
June, we'll have about 168. They will be in that temporary 
facility, but we are working quickly to see that we can--as 
fast as possible, of course with your help, we'll work with you 
to see if we can get the necessary tools available to make this 
happen a lot sooner.
    I know that our goal is to get at least 300 students there. 
And I do want to inform you that we just hired a new director 
for Job Corps--Mrs. Primrose--who is a former student of our 
program--not student, but someone who actually worked in the 
program and understands the needs and how--and the attention 
that the Job Corps program really deserves.
    So, I feel very confident that we're going to be able to 
work with you and with our Assistant Secretary for ETA, Jane 
Oates, to make this possible. And I look forward to working 
with you. I, too, am very anxious to see this program in its 
more permanent facility.
    Senator Cochran. Well, thank you very much. I'm encouraged 
by what you're saying. I'm glad to know that it has your 
personal attention. We appreciate your leadership in moving the 
construction forward.

              OFFICE OF LABOR MANAGEMENT STANDARDS (OLMS)

    One other thing that has been brought to my attention, in 
preparation for the hearing, and that is that the enforcement 
of labor standards is in the hands of the OLMS. And there's 
some question about whether or not funds have been requested in 
an amount that will permit this office to carry out its 
responsibilities. I understand that financial disclosure forms 
are filed by unions, with this office. And is there any effort 
to cut down on the oversight, or any of the enforcement 
activities, of OLMS, as reflected in these low levels of 
funding requests?
    Secretary Solis. Senator Cochran, I'm glad you asked me 
that question. I know the last time that I was here before the 
subcommittee, I stressed that we would do everything in our 
power to make sure that we level the playing field, that we 
work to be more accountable and transparent with union members, 
and also making sure that we could disclose information. And 
I'm actually happy to say that, with our commitment in the 
fiscal year 2011 budget, we're actually increasing the amount 
of money--$3.8 million--for OLMS. Much of that will go into 
technology so that we can make it easier for reporting to be 
disclosed on forms that will be accessible through electronic 
means. And that's something that hasn't been done as 
extensively as we would like. So, we'll actually be able to 
increase, from 3 to 12, the number of public forms that will be 
electronically submitted. So, there will be more disclosure.
    What we're trying to also do is really focus in on those 
egregious cases that come about. I want to report that criminal 
investigations are up for 2009. In 2008, it was 393; 2009, it 
was 404. Convictions, 103 for 2008; for 2009, 120. So, I can 
tell you that we are working very hard to make sure that we 
investigate those places and--necessary reporting requirements 
have to be adhered to, and we're trying to make it easier for 
in OLMS to make sure that we get the right information, that we 
don't overburden the system with unnecessary information, but 
that it is clear, transparent, and available for union members 
to see, as well.

                           PREPARED STATEMENT

    Senator Cochran. Thank you very much. And, we may have some 
other questions that we may submit for the record, Mr. 
Chairman.
    Senator Harkin. Absolutely.
    Senator Cochran. Thank you.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Mr. Chairman, thank you for calling this hearing to discuss the 
fiscal year 2011 budget for the Department of Labor.
    I want to welcome Secretary Solis to her second appearance before 
this subcommittee and look forward to her testimony.
    Madam Secretary, I want to commend you for your continued support 
of the Youthbuild Program. With funding from your department, the 
Corporation for National and Community Service and private foundations, 
amazing work has been done in the Gulf Coast region. Young people from 
the Youthbuild Americorps Gulf Coast Program have rebuilt more than 150 
homes damaged by Hurricane Katrina. This program has given out-of-
school, out-of-work youth the opportunity to obtain their general 
education diploma, gain vocational training, and get paid while 
learning. We look forward to working with you to continue this 
important program.
    Once again, I thank you Mr. Chairman for calling this important 
hearing.

    Secretary Solis. Thank you, Senator.
    Senator Cochran. Thank you, Madam Secretary.
    Senator Harkin. Senator Specter.

                   STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Thank you, Mr. Chairman.
    Madam Secretary, thank you for taking on this important 
job. With all of the excitement in the House of Representatives 
in the last few days, do you ever miss it?
    Secretary Solis. I feel even more connected today.
    Senator Specter. Well, you left your key position in the 
House; and with all of the excitement and activity, I thought 
you might have some thought about that line, especially a 
couple of days after the big event.

                          DECREASE IN FUNDING

    Madam Secretary, I note that there has been a decrease in 
funding for the DOL, some $300 million from the 2010 level. And 
with the enormous responsibilities you have for occupational 
safety, health, and mine safety, and Job Corps, seems to be 
hard for you to stretch the dollars.

            VETERANS EMPLOYMENT AND TRAINING SERVICE (VETS)

    There are a couple of specific items I would like your 
comment about. And one relates to the VETS. The funding there, 
as I see the briefing notes, will allow for employment and 
training assistance to some 25,000 homeless veterans. And that 
seems to me to be a relatively small number of the veterans who 
are returning from very difficult duty in Iraq, Afghanistan, 
and other places. And how many--if you know, or provide it 
later--of the veterans who could qualify for that kind of 
employment and training service are there, beyond the 25,000?
    Secretary Solis. Senator Specter, we're looking at the 
issue of employment placement through VETS, something that I 
think has been put aside in the past few years.
    We have a very dynamic Assistant Secretary there. Ray 
Jefferson, who you may know, is a West Point graduate, also 
served in, I believe, Afghanistan, and brings to the Department 
a real enthusiasm, as well as strategic direction of where we 
need to go with helping our veterans that are coming home. This 
is a very serious problem and concern for all of us. I know 
that what we have done is try to increase the budget so we not 
only look at employment opportunities, but that we engage with 
private partners, such as the Chamber of Commerce, for creating 
these partnerships so that we can easily place some of our 
returning veterans in business and job opportunities throughout 
the country.
    This is something that I believe has to happen now, because 
there's a high rate of unemployment amongst our returning young 
veterans, in particular--the rate is very, very high. I realize 
that our budget is somewhat limited, but we're testing some new 
theories, so to speak. One of them is the TAP program, which 
will help those veterans that are coming home be able to 
reintegrate and understand what services are immediately 
available. We're working in partnership with the Department of 
Defense on this, but it's something that I don't think has 
really been fully developed. And so, we're taking a shot at it, 
because I think it's something that's very important to help 
provide even further assistance so that veterans and their 
family members, their spouses, also have the ability to draw 
down information and services that they're eligible for.
    You wouldn't believe how many people I've come across, as a 
former member in my district, visiting some of these locations 
where veterans are returning, and they're kind of rushed 
through in a--maybe a 1-day event where they're given 
information, that may not really be digested well that one day, 
because they're coming home, they're thinking about other 
things. We believe that services have to be--have to be carried 
out in a manner that's actually going to be effective. So, we 
want to be able to monitor what we're doing; we want to be 
accountable; we want to make sure that the right services are 
happening for our veterans, and especially homeless veterans, 
as well as female veterans. And that's why we're making 
available an amount of $5 million to start working with female 
veterans who are coming back and really struggling, many who 
have experienced sexual assault and may become homeless, as 
well.
    I hope we can work with you on----
    Senator Specter. Madam Secretary, I'd appreciate it if 
you'd take a look at the total number of veterans in that 
category who need that service. Perhaps this is something where 
there could be some assistance from the Veterans 
Administration. I serve on the Veterans Committee, used to 
chair it. And they have a--an extensive budget. And perhaps we 
could have some coordination there, if, in fact, there is a 
large number, beyond what you can accommodate within your 
budget.
    Secretary Solis. Senator, I'd be happy to work with you on 
that. Obviously, the Veterans Administration has a much larger 
budget, as you state, than we do. And I would definitely like 
to work with Cabinet member Shinseki. We've had discussions 
about this, and it would--I would very much like to work with 
you, and, of course, the Chairman, on this.
    [The information follows:]

    The veterans' courts got their start at homeless veterans stand-
down events when organizers decided to provide homeless veterans with 
an opportunity to address legal barriers such as DUIs, misdemeanors, 
child support and other legal-related issues which precluded many 
homeless veterans from seeking reintegration into the mainstream. This 
concept has been expanded by the Department of Veterans Affairs (VA) to 
include issues related to mental health and drug courts.
    Veterans' Employment and Training Service (VETS) has supported 
homeless veterans stand-down events through not-for-profits who serve 
homeless veterans. This support includes local veterans employment 
representatives and/or Disabled Veterans Outreach Program specialists 
being available to address employment and training needs of homeless 
veterans.
    Our recent Solicitation for Grant Application (SGA) focusing on 
incarcerated veterans has a component to address issues that impact on 
the re-entry of veterans from Federal, State, and local correctional 
facilities. In an effort to ensure that veterans being served by these 
grants receive access to a wide-range of services, the SGA contains 
language which requires partnership with the VA including collaboration 
with medical centers and especially the VA re-entry specialists and 
justice outreach coordinators.
    VETS' staff recently attended a national VA conference to assist in 
the training of justice outreach coordinators to ensure that a linkage 
with local workforce staff occurs to provide employment and training 
opportunities for veterans who are coming out of incarceration and/or 
jail.
    VETS' staff also attended a defendant/offender workforce 
development conference to discuss interaction with the criminal justice 
system in partnership with the VA with correctional institutes and 
parole and probation officers.
    We announced on April 26, 2010, a grant competition under 38 U.S.C. 
2021, which provides employment assistance to Veterans who are homeless 
and this year we have targeted homeless female veterans and veterans 
with families. Additional information may be found on our Web site at 
http://www.dol.gov/vets
    Lastly, VETS is planning a postaward conference for all of their 
Homeless Veterans Reintegration Program and Incarcerated Veterans' 
Transition Program service providers and will devote time to discuss 
the role of the Department of Labor in assisting veterans who are 
leaving a Federal, State, or local jail as well as working with the 
VA's justice outreach coordinators to provide a plan for those veterans 
interacting with the veterans' courts.

                              MINE SAFETY

    Senator Specter. The issue of mine safety is a gigantic 
one. We tend to downplay it until there is a tragedy, and then 
we're all up in arms about it. In the MINER Act of 2006, there 
was a requirement for communications gear. An interesting 
article in the Charleston Gazette reported on a lack of 
wireless communications in some--only 34 of the Nation's 415 
active underground mines possessed fully functional wireless 
underground communications capabilities. Would you take a look 
at that issue and let us know if that figure is accurate, and, 
if so, what the plans are to cover the balance of those 
facilities?
    Secretary Solis. Yes, Senator Specter. I am intrigued by 
the kind of work that is done by our Mine Safety and Health 
Administration (MSHA) programs now, and had the opportunity 
last year to go down and actually visit one of our mines in 
Virginia, and saw the equipment--some of the more premier 
equipment that's available for communication. It was explained 
to me how that works, if there are disasters that occur, what 
backup plans are necessary. And they're very costly, on both 
sides--for us to do the inspection, in terms of our staff, but 
also for the employer. So, there is a need for us to focus more 
on what mines are not doing, because of their inability or not 
knowing that these safety precautions need to be put in place. 
I would certainly want to work with you. I know this is 
something that our new Assistant Secretary, Joe Main, takes 
seriously about ways to improve our work in MSHA-- and is 
somebody who has a great deal of respect, I think, from both 
sides--management and labor.
    [The information follows:]
           Underground Communications and Tracking Equipment
    As of April 2, 2010, there were 414 active underground coal mines 
and 75 active nonproducing mines required to have electrical 
communications and tracking (C&T) systems within an approved emergency 
response plan (ERP). Of those 489 mines, 441, or 90 percent, had an 
approved ERP that included provisions for a C&T system.
    As of March 31, 2010, 58 mines had C&T equipment completely 
installed and operational in both the outby and inby section loading 
points. An additional 154 mines were in process of installing C&T 
systems.
    The remaining 229 mines with an approved ERP [441-(58 + 154)] were 
awaiting delivery of system components from manufacturers or suppliers. 
Mine Safety and Health Administration (MSHA) supplemental questions and 
answers on Program Policy Letter No. P09-V01 states that mine operators 
must provide to MSHA, within 15 days of plan approval, a purchase order 
for the communication and tracking systems that will be installed in 
accordance with an approved ERP. Absent factors beyond the operator's 
control, the system(s) must be installed within 3 months of the 
delivery date specified in the bona fide purchase order. As of April 2, 
2010, operators with approved plans had purchase orders with delivery 
dates as late as 2011.
    MSHA's districts continue their work with the remaining 48 mines 
that do not yet have an approved ERP to develop an acceptable plan. In 
instances where MSHA and the operator cannot come to agreement on an 
approved plan, MSHA is working with the Office of the Solicitor to take 
legal action to bring the operator into compliance with the act.

    Senator Specter. One final comment. You and I have talked 
about the possibility of your coming to Pennsylvania. It's not 
as a far as Iowa or Mississippi or Rhode Island. The work that 
you're doing has tremendous impact, generally, but especially 
on the big cities, on the Job Corps, so many unemployed 
minorities with so many difficulties. So, we'll pursue that, on 
the staff level.
    Thank you very much, Madam Secretary.
    Secretary Solis. I look forward to that visit. Thank you--
--
    Senator Specter. Thank you.
    Secretary Solis [continuing]. Senator. Thank you.
    Senator Harkin. Senator Reed.

                     STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    And thank you, Madam Secretary, for your work and for 
joining us today.
    One of the consequences of this severe financial crisis is 
more than 30 States have borrowed up to $35 billion from the 
Federal Government to continue paying their regular 
unemployment compensation benefits. And as some States look for 
ways to pay back their loans and balance their budgets, they're 
at least contemplating raising taxes on employers, which would 
be, essentially, counterproductive, in the sense that we are 
doing all we can to encourage hiring by lowering the cost of 
employees. The States in this situation would be pushing 
against us. So, it leads to the obvious question of what we can 
do to help these States.
    In the 1980s, there was some--both permanent and some 
temporary assistance offered to States who were in danger of 
credit reduction when they don't repay their loans. I'm 
wondering what you and the Department are thinking about in 
this context, and what, together, we can do to provide some 
assistance.
    Secretary Solis. Thank you, Senator Reed. And I also want 
to thank you for the opportunity to visit your State and your 
Job Corps last year.
    Senator Reed. Thank you.
    Secretary Solis. I will say that this is a very serious 
recession that I still think we are in. And I know that many of 
our States, including the one that I'm from, California, have 
seen just unprecedented levels of use of the UI Trust Fund. And 
yes, we do have to do something. And I'd be happy to work with 
you to figure out how we can try to fix this, because many--too 
many people are suffering. And it isn't enough just to think 
about this in terms of this short-term crisis, but to think, 
long-term, how we can remedy this.
    So, I'm looking and anxious to hear what options you might 
have, so that I can work with you and take back to--take back 
to our administration--how we can shorten the time that people 
get benefits and help the systems work better. There are major 
problems with the infrastructure, the delivery system itself, 
the fact that many--even State employees are being furloughed 
in this area, and that aren't even able to expedite and process 
some of these applications. And then, to further add to it, the 
fact that many of our States aren't creating or generating any 
revenue to pay in, so our businesses aren't able to participate 
as they, maybe, would have. These are not normal times, and it 
requires some new thinking. And I look forward to working with 
you. I hope that's sufficient.

            EXTENDING TEMPORARY WAIVER OF INTEREST PAYMENTS

    Senator Reed. Well, thank you very much, Madam Secretary. I 
think we understand the problem, and now we have to really roll 
up our sleeves and see what we can do, specifically. And not 
only in terms of the efficiencies you outlined, but avoiding 
the contradiction of Federal policy lowering the cost of 
employment and State policy raising the cost of employment.
    There's another aspect of this issue, and that is: In the 
Recovery Act, there was a temporary waiver of interest payments 
and accrual of interest on Federal advances to the unemployment 
funds through the end of this year. What are your thoughts 
about extending those provisions for the following year?
    Secretary Solis. I would want to work with you closely on 
that to see what we can come up with. I know that the 
administration is looking at different packages right now. And 
I know you've been very helpful, with some of your ideas. So, I 
look forward to working with you. I think you have a great deal 
of experience in this area that can help us. So, I'm willing to 
work with you on that.
    Senator Reed. Well, thank you. I think we all recognize 
that your advocacy within the Cabinet for this--these programs 
and these policies is absolutely critical. So, if you work 
inside, we'll try to work outside, I guess. And we'll work 
together.

                     NEW WORKFORCE INNOVATION FUND

    One of the aspects of the President's budget is the $108 
million for the new Workforce Innovation Fund, including 
expanding ``learn and earn'' strategies, like apprentice 
programs. And it raises a question, in terms of accelerating 
apprentice programs that are incorporating these programs in 
Federal construction contracts. To be specific, we've been 
working with the Navy, in Newport, and trying to have them 
recognize this one factor award in their contract award, those 
companies who participate in apprentice programs, as a way to 
incentivize them to develop apprentices. And I wonder, 
generally, across the board, what would be your attitude toward 
a--including this factor--apprenticeship programs--in the award 
of Federal contracts.
    Secretary Solis. Well, Senator, as you know, we have--
through the ETA program, we run our own apprenticeship program, 
as well--a registered program there. And I know that, in the 
course of this recession, we've really found that some of the 
best programs are run through these various apprenticeship 
programs, where you have private industry as well as labor 
working together, on-the-job training. And the masterful skill 
and training and certification that's gained by it, I think, 
makes these individuals much more marketable than if they 
would've gone through another program. It is--they're more 
costly, they're limited in reach, in terms of how many people 
can be a part of this. And I'm looking at ways of how we can 
expand it. So, I'm actually very favorably looking at how we 
can do that. So, that's another area that I would like to work 
with you on.
    Through our WIA programs, if I can just mention, we have 
made it a point to also provide assistance to pre-
apprenticeship programs, because there's a lot of folks that 
want to get into apprenticeship programs, but aren't prepped up 
enough to understand the requirements and the rigors, because 
these programs are very highly technical in skill and skill 
development and the skill sets that must be acquired. And I can 
see where, if we're going to try to push a new--a whole new 
generation of people to get into these jobs, we're going to 
need to have an expansive way of allowing for access to reach 
more people. So, that's something that we're also exploring, 
but I definitely want to see more opportunity available so that 
we can have apprenticeship programs in some of our major 
Federal projects that we undertake.
    So, I very much agree with your statement.
    Senator Reed. Thank you, Madam Secretary.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you all very much.

                        SUMMER YOUTH EMPLOYMENT

    I just had one follow-up question, Madam Secretary, and it 
had to do with summer youth employment. The Recovery Act 
provided $1.2 billion, we had 300,000 young Americans. I met a 
lot of them last summer, in my own home State, and we had a 
meeting March 9, Senator Murray had an amendment that would 
have provided $1.5 billion in supplemental funding for DOL's 
youth for the summer employment program, but it failed, on a 
budget point of order, even though we had 55 votes in favor of 
it. But, I'm just wondering how you're viewing the summer 
coming up. And what can we do with whatever funds you might 
have? And we're going to have a lot of kids out there that 
could be working this summer, so how do you see that unfolding? 
I mean, we're now in March already, almost April.
    Secretary Solis. Mr. Chairman, I know that this is an issue 
that both Senator Murray and yourself have been championing for 
some time. I, too, was disappointed that the proposed amendment 
was not passed. I'm ready to work with you and other Members of 
the Senate to see how we can get additional funds. I know the 
President is committed to seeing this program funded in a way 
that we can, hopefully, bring in another 350,000 students to 
participate. Last year, we were at 318,000. We doubled the 
number of young people that we thought could be involved in the 
program.
    We know it works. It is something very important. I know 
the House has, I believe, a measure that they're proposing that 
doesn't go quite as far. I understand that under a Federal 
Emergency Management Agency supplemental, there will be some 
amount of money--$600 million, I believe--which, again, isn't 
quite the amount that Senator Murray and you were pushing. So, 
I would want to work with you to see how quickly we can get 
this done, because people have to plan now, at the local level, 
to start hiring up and get this program in place. We were very 
fortunate that, after 10 years, we were able to get this 
program somewhat up on its feet. But, we want to expand it and 
make sure that it is available for all those that need this 
program. And I agree, when you see these students in these 
programs, some of them are just amazing--the work that they 
gain, the experience they gain, but also the work ethic that 
inspires them to want to continue to go to school, but also 
hold down a job.
    Senator Harkin. I can't tell you how many I talked to last 
summer that--you know, were thrilled with what they were doing. 
And many of them are just saving their money to go to college. 
I mean, this is some of the money that helps them get through 
school; plus giving them, as you said, job training and work 
experience, that type of thing; plus helping our economy.

         SUPPLEMENTAL APPROPRIATION FOR SUMMER YOUTH EMPLOYMENT

    So, I'm hopeful that sometime soon the Congress will be 
able to appropriate some money for summer youth employment. You 
just don't have it in your budget. I mean, there's no way we 
can hire 300,000 young people this summer with what you have. 
It has to be a supplemental appropriation. And, as you point 
out, we're now coming to April--we've got a couple weeks off 
for Easter break--we come back, so if we're going to do it, we 
have to do it pretty soon, in order to get the money out, make 
sure the youth get employed this summer.
    I can't think of a more important thing to do in the 
immediate timeframe than that.
    Secretary Solis. Senator, thank you. I know this is one of 
those programs where the money goes out quickly, and it is 
either spent or it's saved. But, in most cases, some of the 
students that I met with were actually helping to supplement 
their income. I met with some students in Puerto Rico that were 
working on conservation projects along the beach. And you know 
how tourism is very important to that part of the country. That 
money, some of the students were telling me, was used to help 
their families pay rent, because the unemployment rate there is 
even double. So, it's amazing what young people will do when 
there is an opportunity made available through these programs.
    Senator Harkin. Sure.
    Well, Madam Secretary, thank you again, very much for 
coming up early.
    Secretary Solis. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. The subcommittee will have a number of 
questions for the record. And the record will be open for 10 
days for Members to submit additional questions.
    Thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Tom Harkin
              employment and training administration (eta)
    Question. ETA has proposed $107,651,000 and appropriations language 
to establish a new Workforce Innovation Fund (WIF). ETA is planning to 
use not more than 5 percent of an allocation under the proposed adult 
and dislocated worker WIF for rigorous evaluation of all project funded 
under the demonstration phase of the program.
    How many demonstration grants would ETA award under the program? 
What would the evidentiary standard be for replication projects using 
``promising or proven'' projects, and how many replication grants would 
be funded at the requested amount?
    Answer. The Innovation Fund will test and replicate innovative 
strategies for training and re-employment services that respond to the 
current and future needs of workers and the economy. The mix of 
demonstration and replication grants, as well as standards for 
replicating promising or proven program practices, will be developed as 
part of the Solicitation for Grant Applications (SGA). The number of 
grants will depend on the size, scope, and design of the grants 
awarded, and will be influenced by the innovative concepts and 
promising practices proposed by applicants to address issue areas such 
as ``learn and earn'' models, linkages with economic development, 
supporting regional and sectoral collaboration, reaching underserved 
populations, working across programs to provide comprehensive services, 
and enhancing technology to increase the quality or expand the scope of 
services provided.
    WIF also will allow applicants to propose promising practices or 
approaches they wish to replicate and build evidence that the approach 
is effective or can be taken to a larger scale. The SGA will include 
response criteria for applicants to address when proposing to replicate 
``promising or proven'' approaches, which will include evidence that 
the approach produces positive performance outcomes or has significant 
impacts, and other evidence supporting the rationale for replication.
    I look forward to working with the subcommittee on this important 
endeavor and providing further information about our progress and 
activities.
    Both the American Recovery and Reinvestment Act (ARRA) and the 
fiscal year 2010 Department of Labor Appropriations Act provided local 
Workforce Investment Boards (WIB) with the authority to contract with 
institutions of higher education or other eligible training providers 
if it would facilitate the training of multiple individuals in high-
demand occupations and not limit customer choice. The fiscal year 2011 
budget continues this authority.
    Question. How has the Department of Labor (DOL) monitored and 
evaluated the use of this authority? Is it a cost-effective mechanism 
for providing support for training at the local level?
    Answer. DOL monitors the use of the authority to contract with 
institutions of higher education or other eligible training providers 
under ARRA through our standard desk and on-site grant reviews and 
other oversight activities. ETA does not collect such information 
through its approved data collection systems. This authority was also 
included as part of DOL's fiscal year 2010 appropriation for use during 
the program year starting July 1, 2010. Use of the authority varies by 
State, depending on need and program design. However, many local WIBs 
are using this authority to add flexibility to their program design. In 
a recession, it is common that the number of students attending 
training greatly increases and creates a shortage in available training 
for in-demand occupations. In such cases, contracted training can be 
useful in expanding opportunities and consumer choice.
    The use of contracts to provide training capacity for One-Stop 
Career Center customers gives local areas flexibility beyond Individual 
Training Accounts (ITAs) to meet customer needs. Contracting authority 
allows local areas to cover a larger range of costs than ITAs, allowing 
local areas to develop new curricula and expand training offerings to 
meet the skill needs of growing industry sectors. Local areas indicate 
that contracted training that expands existing program capacity by 
funding seats during off-hours or at alternate sites can be less 
expensive than the cost of the class in the traditional setting. In 
cases where contracted training is more expensive on a per-student 
basis than an ITA slot, local areas report that the costs of forgoing 
or delaying training of WIA participants due to limited capacity exceed 
the additional monetary cost of offering these courses via contract. 
Increasing training capacity can help low-income adults and dislocated 
workers enter the workforce more quickly. Therefore, we believe that 
this authority can offer a cost-effective, customer-driven alternative 
for providing support for training at the local level.
    The fiscal year 2011 request for youth activities includes 
$153,750,000 and appropriations language creating a Youth Innovation 
Fund (YIF). The fund would support grants for summer and year-round 
employment opportunities, and Work Experience Plus grants.
    Question. How many of each type of grant will be awarded at the 
budget request amount? What would the evidentiary standard be for 
projects seeking to replicate program practices that are proven 
successful?
    Answer. At the budget request amount, ETA anticipates awarding 30 
to 50 grants to support summer and year-round employment opportunities 
and between 18 and 25 Work Experience Plus grants. Similar to the WIF, 
the mix of demonstration and replication grants, as well as standards 
for replicating promising or proven program practices, will be 
developed for the YIF as part of the SGA. The number of grants will 
depend on the size, scope, and design of specific projects awarded 
funding, and will be influenced by the innovative concepts and 
promising practices proposed by applicants, including strategies to 
create new partnerships with the private sector, organized labor, 
public sector, and community organizations, and to test new approaches 
to delivering work and learning experiences and related services to 
improve outcomes for underserved populations, such as out-of-school 
youth, youth with disabilities, or homeless youth. The SGA will include 
response criteria asking applicants to provide evidence that the 
proposed approach produces or has the potential to produce positive 
impacts on educational and employment outcomes.
    The fiscal year 2011 congressional budget justification indicates 
that ETA will continue its focus on developing collaborative systems at 
the Federal, State, and local level for serving the youth most in need. 
ETA recently issued guidance on innovative contracting strategies to 
better serve youth most in need.
    Question. Have you seen any changes made in State and local 
practices related to the strategies outlined in this contracting 
guidance? Have your efforts on coordination identified other barriers 
to using resources effectively to serve youth most in need? If so, what 
are they and what actions are planned by DOL and Federal partners to 
address them?
    Answer. The contracting guidance was released in February 2010 and 
it is too early to see any changes made in State and local practices 
related to structuring contracts to better serve the youth most in 
need. In order to encourage collaboration across systems to more 
effectively serve the youth most in need, ETA and the Administration 
for Children and Families in the Department of Health and Human 
Services issued a joint letter in January 2010 encouraging the 
workforce system to partner with Temporary Assistance for Needy 
Families (TANF) agencies to create subsidized employment opportunities, 
including summer jobs, using ARRA TANF emergency funding. ETA also 
issued Training and Employment Notice 24-09 to highlight this 
partnership. Since January, a number of States have started to develop 
the type of partnerships outlined in the joint letter.
    ETA was planning to complete 50-75 on-site monitoring reviews of 
One-Stop Centers in program year 2010.
    Question. What has this monitoring found on the issues of access 
and services for individuals with disabilities, including specifically 
physical and programmatic barriers? How do these findings compare to 
such reviews in program year 2009? How many reviews are planned for 
program year 2011?
    Answer. ETA is currently in the last quarter of program year 2009, 
and entering program year 2010 on July 1, 2010. Program year 2011 will 
begin July 1, 2011.
    In early program year 2009, in preparation for the addition of ARRA 
funding, ETA visited all 53 States and territories and 156 local areas 
for a total of 209 visits to determine their readiness for ARRA 
activities. These were not monitoring reviews, but integration of 
programs and accessibility of program services were examined.
    In regular program compliance monitoring visits, ETA has monitored 
53 States and territories and at least 114 One-Stop Career Centers in 
program year 2009. The small number of compliance issues identified 
included the weight of a One-Stop entrance door in Delaware and a 
Washington, DC youth classroom on the second floor without elevator 
access. Both areas resolved the problem. Most regions report no issues, 
and state that centers have been successful in building up the training 
and resources for staff, as well as additional resources and 
relationships with employers for individuals with disabilities. In 
region 6 for example, California, Arizona, Idaho, and Hawaii have been 
pursuing the purchase of additional assistive technology and upgrades 
to existing assistive technology for their comprehensive One-Stop 
Career Centers. The States of California and Arizona have also 
increased sponsorship and coordination efforts to promote the 
availability of accessible programs and services for people with 
disabilities, and have utilized a portion of their Wagner-Peyser ARRA 
funds to increase awareness of service accessibility for people with 
disabilities. Whenever issues of compliance arise the regional office 
issues corrective action plans and provides technical assistance, and 
ETA advises States to closely monitor implementation of the corrective 
action plans.
    In addition, Office of Disability Employment and ETA will conduct a 
separate independent survey of the physical, programmatic, and 
communications accessibility of the One-Stop Career Center system in 
the fall of 2011. DOL anticipates that a number of large, medium, and 
small comprehensive One-Stop Career Centers will be selected across 
several States. A full survey of accessibility will be conducted in the 
fall of 2011 that includes review of WIB policies and procedures 
relative to the availability of intensive and training services for 
individuals with disabilities.
    Work plans for monitoring have not yet been formulated for program 
year 2011, which begins July 1, 2011. However, we anticipate a similar 
number of local reviews in program year 2010 and 2011 as were conducted 
in 2009.
    The 2011 request for Job Corps operations is $1,572,253,000, a 
decrease of $1,762,000 below the 2010 level. The budget indicates that 
``The budget requires that efficiencies within Job Corps operations are 
pursued.''
    Question. Please describe the efficiencies that Job Corps has 
achieved in recent years and what may be pursued in 2011 that will not 
compromise the outcome goals of the program.
    Answer. The Office of Job Corps routinely seeks program 
efficiencies that produce a cost savings without compromising the 
effectiveness of service to its students. As part of the 2011 budget, 
the program is pursuing a reform agenda to identify additional 
operational efficiencies and improve student outcomes.
    One of the operational efficiencies Job Corps is pursuing is to 
reduce ever-increasing utility and fuel costs. The activities Job Corps 
plans to conduct include: reducing the program's General Services 
Administration vehicle fleet; replacing traditional vehicles with 
alternative energy-efficient electric vehicles; and ARRA-funded energy 
efficient upgrades that will reduce utilities costs at Job Corps center 
facilities. To complement these efforts, we have implemented a 
nationwide energy conservation campaign, funded by ARRA, which promotes 
the adoption of ``green'' practices by students and staff. Further, our 
new Job Corps centers are being built to meet Leadership in Energy and 
Environmental Design specifications and will be state-of-the-art, 
energy-efficient facilities.
    Job Corps also is working to maximize centers' slot capacity 
utilization, which includes increasing student retention. The program 
anticipates an increase in students' average length of stay as a result 
of our rigorous career technical training system that includes 
industry-focused foundations courses for new students and the 
incorporation of industry-recognized certifications. Under this system, 
students need to remain in the program longer to complete program 
requirements and this increased retention will reduce costly student 
turnover.
    Finally, Job Corps is exploring ways to decrease the cost of large-
scale, on-center services, such as basic medical care and prescription 
drugs, without compromising the quality or provision of these services 
to students. The program also will evaluate its discretionary national 
office support contracts for possible reduction or conversion to 
Federal staff.
    Question. What connections have been made across systems to provide 
support to Job Corps students eligible for services through systems, 
such as Medicaid?
    Answer. As part of the admissions process, and upon conditional 
enrollment, students are asked to provide verification of any private 
insurance or Medicaid coverage. If the applicant has no coverage, 
center staff assists the applicant in applying for either State medical 
coverage and/or Medicaid.
    The Job Corps program also encourages all centers to establish 
working relationships with their local health departments and community 
health organizations. This allows the program to augment its available 
resources to deliver a wider array of services.
    Job Corps Health and Wellness Desk Reference Guides developed for 
center health and wellness managers, center mental health consultants, 
disability coordinators, and center physicians provide suggestions and 
examples for cost-saving strategies by developing relationships with 
community resources (e.g., check for agencies that may be receiving 
grant money to provide a range of services--from mental health to 
family planning to nutrition planning; contact local health department 
and review what services are available at no cost to Job Corps 
students; review with local hospital and associated clinics their 
policies on providing free/low-cost services to economically 
disadvantaged patients).
    Technical Assistance Guides (TAGs) provide guidance regarding 
community connections (e.g., TEAP TAG encourages centers to establish 
community connections that support relapse prevention efforts and 
provides examples (e.g., self-help groups). The Family Planning TAG 
encourages centers to supplement program components not available on 
center with free or low-cost community resources and provides examples. 
The Immunization TAG encourages centers to contact their State/local 
health departments to determine vaccine availability under the Vaccines 
for Children (VFC) program which provides free vaccines to children who 
are on Medicaid, are without insurance or underinsured, or are Indian/
Alaskan Natives).
    Regional office staff monitors the health and wellness programs as 
part of their regular monitoring of the centers.
    The Advisory Committee on Job Corps made a number of 
recommendations about improving services to students with disabilities 
through Job Corps centers.
    Question. What actions is ETA taking or planning to take to help 
improve such services? How does the 2011 budget support such these 
actions?
    Answer. The Job Corps Advisory Committee made a number of 
recommendations to improve Job Corps' handling of students with 
disabilities. We have already pursued several recommendations, and seek 
to continue their implementation as part of our 2011 budget request.
    One recommendation was to improve center staffs education about 
disabilities. The program responded by dramatically increasing its 
training opportunities for center staff through platform trainings, 
webinars, the provision of on-site technical assistance, and the 
deployment of information toolkits through the Job Corps Disability Web 
site.
    The Advisory Committee also suggested that centers hire special 
education teachers to assist students with disabilities. Job Corps 
centers are encouraged to employ these teachers, whenever possible. The 
Office of Job Corps will continue to work to increase the number of 
special education teachers at our centers.
    In keeping with the Advisory Committee's recommendation, Regional 
Disability Specialists have been employed by Job Corps and support 
centers in their respective regions. These specialists serve as 
technical experts and provide center staff with assistance in the area 
of disability accommodations and education.
    Another committee recommendation was to improve employer outreach 
for the hiring of students with disabilities. Job Corps is conducting 
webinars for placement staff on communicating with employers about the 
benefits of hiring students with disabilities.
    We also created tools and identified resources that would improve 
students' self-advocacy skills, enabling them to become knowledgeable 
of and confident in their rights. Additionally, Job Corps has expanded 
its strategic alliances with other groups to better leverage and 
augment the disability-related services it can provide.
    The budget request indicates that funds have been requested for a 
``compensation adjustment'' for professional Job Corps staff and 
further indicates that staff compensation is a part of ``program 
reform.''
    Question. Can you describe what ``program reform'' means and how 
the 2011 budget will be used to support to support this effort?
    Answer. The Office of Job Corps' agenda for program reform will 
include identification of program inefficiencies that can be resolved 
to produce savings, such as reducing fuel and utility costs, maximizing 
centers' slot capacity and improving student retention, and taking 
advantage of economies of scale for targeted on center services.
    Job Corps is also planning to conduct an assessment of its 
operational structure, with a particular focus on center performance. 
The review will examine variations in the way the program model is 
being implemented across centers and identify best practices at high-
performing centers that can and should be replicated across the Job 
Corps system. In response to the findings, Job Corps will develop 
aggressive improvement plans to assist lower performing centers. The 
administration has begun the process of procuring an outside evaluator 
to conduct this review.
    To maintain high-quality instruction, one specific challenge that 
Job Corps faces as part of reform is staff compensation levels for our 
academic and career technical training instructors. Job Corps analyzed 
a sample of academic and career technical instructor salaries in April 
2009. The sample was representative of instructor salaries at 
approximately 30 percent of centers operated by private or nonprofit 
contractors. Selected centers were located across all six regions and 
included large and small centers in urban and rural locations. The 
results of the sample showed that Job Corps instructor salaries 
averaged $19.89 per hour ($41,371 annually) contrasted with a Bureau of 
Labor Statistics (BLS) national instructor average of $34.62 per hour 
($71,999 annually). Individual analysis by center indicated some 
variations based on geographical location.
    As part of the 2011 budget, DOL proposes adjusting compensation 
levels to place our instructors on equal footing with their 
counterparts in the public school system. Over the past several years, 
the program has had difficulty in attracting and retaining qualified 
instructors, due to the disparity in income of these two groups.
    Misclassification of employees as independent contractors is a 
significant issue that denies employees benefits to which they are 
entitled and results in revenue losses for the Unemployment Insurance 
Trust Fund and other accounts.
    Question. Please describe how ETA will structure each of the grant 
competitions for the $10,950,000 in State Unemployment Insurance and 
Employment Service Operations (SUIESO) funds requested for the 
misclassification initiative.
    Answer. ETA is currently working to develop an implementation plan 
for these grants. We anticipate the grants that will enable States to 
build their capacity to identify worker misclassification in the 
context of the Unemployment Insurance (UI) program will focus in two 
key areas: technology infrastructure to engage in cross-agency 
information sharing and capacity to do more targeted employer audits. 
These grants will be awarded competitively. State workforce agencies 
responsible for administering the UI program will be the eligible 
grantees.
    The second type of grant will focus on States that have been 
aggressive and innovative in developing processes to identify and 
correct worker misclassification in the context of the UI program. 
These grants will be competitive and will require States to have 
demonstrated results as a criterion for receiving an award. States will 
also be required to identify how they will use the grant funds to 
further their ability to be successful in identifying worker 
misclassification.
    Question. Would DOL's misclassification initiative be assisted by 
changes in the Fair Labor Standards Act (FLSA) expanding employer 
record keeping, requiring notices to newly hired workers explaining 
their classification and their rights, increasing penalties against 
employers who misclassify their workers, and protecting workers from 
retaliation for challenging their employment status?
    Answer. Cross-agency collaboration has already begun, under the 
leadership of the Vice President's office, to improve identification of 
worker misclassification across programs. DOL is exploring all possible 
options for addressing misclassification, including ways to provide 
better guidance to both workers and employers, and to increase 
information sharing between DOL agencies and the States that are also 
working on this issue. DOL's Wage and Hour Division (WHD), which is 
responsible for enforcement of the FLSA, is planning to update the FLSA 
recordkeeping regulations. As part of this rulemaking, WHD is 
considering requiring employers to notify workers of their rights under 
the FLSA and their status under FLSA as an employee or independent 
contractor. Your suggestion will be provided to the working group which 
is exploring ways to reduce worker misclassification.
                                 suieso
    Question. The 2011 budget request includes $18.52 million for 
administration of the Work Opportunity Tax Credit (WOTC). It also 
indicates that application backlogs may exceed 1 million by the end of 
fiscal year 2011. The congressional budget justification indicates that 
``ETA proposes to conduct an intensive strategic management analysis to 
identify the administrative tools, process improvements, and IT 
investments that could support States in their efforts to reduce 
pending applications.''
    ETA already has undertaken a ``comprehensive program review'' of 
the WOTC program. What were the findings of this review, and related 
planned and implemented actions? What is the timeline for completing 
the intensive strategic management analysis?
    Answer. In the 2009 comprehensive review of WOTC, ETA used State 
performance reports and information from State and regional WOTC 
coordinators to identify the States that had the largest backlogs. ETA 
then followed up with individual calls to the 10 States with the 
largest backlogs to discuss the reasons for the backlogs and to ask 
them to develop corrective action plans when necessary. Additionally, 
as part of its comprehensive technical assistance strategy, ETA has 
worked with all States to identify the causes of backlogs and 
successful ways to remediate backlogs based on anecdotal information. 
This information is disseminated to States through ETA's regional 
offices. The information obtained from the 2009 review did not yield 
adequate promising practices that could be implemented to reduce 
backlogs, and ETA now believes a comprehensive strategic management 
analysis of the WOTC certification process is necessary.
    This comprehensive strategic management analysis will be used to 
assess application processing system protocols, recommend action to 
improve processing and reduce the current backlog of WOTC applications, 
and recommend information technology (IT) solutions, especially for 
States with little or no automation. The analysis will be based on a 
selected sample of State Workforce Agencies (SWA), and will employ 
various data collection methods such as review of operational material, 
and site visits. Based upon the findings, a report will include 
recommended actions for ETA to provide SWAs with promising tools and 
practices to reduce application backlogs, to improve the application 
process, and to suggest IT solutions reduce application backlogs. Once 
a contract is awarded, ETA anticipates the review to be conducted over 
3 to 4 months, with expected completion by the end of August 2010
    In an era when a growing majority of families are headed by two 
working parents or a single wage-earner, paid leave programs are one 
cornerstone of a vital support system for working families that also 
includes paid sick days for short-term illnesses, increasing the 
availability of flexible work arrangements, and other family-friendly 
initiatives.
    Question. How would funds requested for the new State paid leave 
fund be allocated to States and for what purposes may the funds be 
used?
    Answer. DOL is currently developing a more detailed implementation 
plan for the State paid leave funds requested in the fiscal year 2011 
budget. While DOL anticipates that the bulk of the funds will be given 
to States for implementation grants, because States are in varying 
degrees of readiness for implementation, the Department may offer 
smaller planning or expansion grants. Implementation grants will be 
targeted to those States demonstrating a readiness to implement a State 
paid leave program, and funds may be used for the administrative costs 
associated with ramping up the program such as putting technology 
infrastructure in place and implementing an outreach effort to educate 
workers on their eligibility for benefits. All States will be eligible 
to apply for these grants.
    Question. What further steps does DOL plan to take to promote 
policies that help workers balance their work and family obligations, 
under ETA, the Women's Bureau (WB), and other DOL agencies?
    Answer. In fiscal year 2011 the WB will build on the lessons 
learned from its successful flex-options project. Workplace flexibility 
solutions, such as flexible work schedules, family-friendly leave 
policies, and telework, help employees navigate their work, family, and 
personal responsibilities, while simultaneously helping employers meet 
their recruitment/retention needs and helping communities ease traffic 
congestion 1and reduce their carbon footprints. Utilizing proposed 
funding provided in the fiscal year 2011 submission, WB will work with 
BLS to initiate the collection of data on parental leave, child care 
responsibilities, family leave insurance programs usage, and other data 
related to the intersection of work and family responsibilities. WB 
will work with other DOL and Federal agencies, employers, women's 
organizations, and other stakeholders to use data and expand flexible 
workplace practices, and to promote laws and policies to help workers 
achieve work-life balance.
    Question. What legislative changes are necessary to assist the 
administration in achieving its goals?
    Answer. Apart from the Department of Labor's fiscal year 2011 
Appropriations Act, no additional Federal legislation is necessary to 
implement the State paid leave grants. Should the need for legislative 
changes be identified in our ongoing work in this area, we will be 
happy to work with the Congress to develop legislative proposals.
                    injury and illness recordkeeping
    Question. This subcommittee has raised concerns over the past 
several years about the underreporting of workplace injuries and 
illnesses, and directed OSHA to enhance its oversight and enforcement 
of employer injury and illnesses recordkeeping. As a result, OSHA has 
initiated a national emphasis program (NEP) designed to address this 
issue.
    Why did OSHA complete almost one-third fewer recordkeeping 
inspections than targeted for fiscal year 2009? How will OSHA ensure 
that NEP recordkeeping inspections stay on track in 2010? What has OSHA 
found through its NEP, particularly its programmed inspections in 
fiscal year 2009 and fiscal year 2010? How does the 2011 budget request 
build on these findings? How much funding is included in the request to 
continue the program?
    Answer. OSHA's NEP on recordkeeping was originally scheduled to be 
implemented on August 1, 2009. After undergoing extensive revisions 
during summer 2009 to ensure that the NEP would lead to the detection 
of the underreporting of injuries and illnesses, the NEP was 
implemented on September 30, 2009. Due to the extensive work on 
preparing the content and administration of the NEP, the recordkeeping 
inspection total for fiscal year 2009 dropped, and was not part of the 
NEP.
    The recordkeeping NEP is designed to be maximally sensitive to 
under-recorded and mis-recorded injuries and illnesses in selected 
establishments, and to enforce the agency's recordkeeping requirements. 
Inspections under the NEP assess the accuracy of the information 
employers are required to record on the OSHA 300 log. The agency issues 
citations and penalties, as appropriate, for recordkeeping violations. 
The NEP targets establishments operating in historically high-rate 
industries that have reported low rates of injuries and illnesses. The 
program also includes establishments in the construction and poultry-
processing industries, due to the inherently high-hazard nature of the 
work in those industries, and to questions that have been raised 
regarding recording practices in those industries.
    Assessments of the accuracy of establishment-specific recordkeeping 
data are made by conducting interviews with employers, employees, 
company recordkeepers, first-aid providers, and healthcare providers. 
The assessments include a review of relevant records and documentation, 
such as medical records, workers' compensation records, and first-aid 
records. The NEP complements other efforts to evaluate and verify the 
accuracy of injury and illness rates, including OSHA's data initiative 
audit, and the BLS' efforts.
    In fiscal year 2010, OSHA intensified training of its Compliance 
Safety and Health Officers (CSHOs) on identifying potential problems in 
recordkeeping data and systems. The agency's Training Institute staff 
revised the core curriculum for CSHOs to include a week-long mandatory 
training course on recordkeeping. OSHA plans to continue its 
recordkeeping NEP through fiscal year 2010, at which time the program 
will be assessed and recommendations will be made on whether or not to 
continue it in its present form. Assuming the assessment at the end of 
this fiscal year leads to the recordkeeping NEP continuing in its 
present form, the fiscal year 2011 budget request makes $1 million 
available for the recordkeeping enforcement initiative to maintain the 
number of recordkeeping inspections planned for fiscal year 2010.
    Following are the results of Federal and State inspections 
conducted under the recordkeeping NEP during fiscal year 2010.
Recordkeeping NEP Inspections as of 4/19/10
    OSHA has initiated 104 Federal inspections under the recordkeeping 
NEP through April 19, 2010. Of the 104 inspections, 11 have involved 
the issuance of citations for 45 violations of the recordkeeping 
regulation (part 1904), resulting in $25,450 of penalties. It should 
also be noted that the vast majority of the 104 inspections are still 
open and subject to the citation of additional violations.
State Plan Inspections
    Total inspection = 33 (31 are from the State of Oregon)
    NIC inspections = 15
                   hiring plan for enforcement staff
    Question. The budget request includes $227.149 million for Federal 
enforcement, which is an increase of $29.203 million and 160 full-time 
equivalents (FTE) more than the 2009 level.
    What is DOL's plan (timeline and associated activities) for hiring 
these additional staff?
    Answer. OSHA is committed to a hiring plan that emphasizes 
increasing its enforcement staff. Since February 2009, the agency's 
regional offices have hired 185 staff, of whom more than 150 are CSHOs 
and 13 are whistleblower investigators. The agency has a target of 
filling 270 positions during fiscal year 2010, and estimates that 150 
possible hires are currently in the selection process, 100 of which are 
CSHOs. The number of hires since February 2009 and the target for 
hiring in fiscal year 2010 both account for historical attrition rates, 
therefore leading to goals that are greater than the requested FTE 
increases in fiscal year 2010 and fiscal year 2011.
    OSHA maintains relationships with a wide variety of academic 
institutions and professional and trade groups to promote career 
opportunities within the agency. A Federal Career Intern Program has 
been implemented to add another facet to the agency's recruitment 
strategies for attracting highly qualified CSHOs, including future 
whistleblower investigators, to help the agency meet its hiring goals.
                         ergonomics enforcement
    Question. Last year, the subcommittee encouraged OSHA to consider 
collecting information on musculoskeletal disorders in a separate 
column on the agency's recordkeeping form. OSHA plans to issue a final 
rule that will allow for the collection of this information.
    How will this request enable OSHA to move forward on ergonomics-
related enforcement activities?
    Answer. A final rule will be issued in 2010 to revise the 
Occupational Safety and Health Administration's (OSHA) recordkeeping 
form to restore a separate column on musculoskeletal disorders (MSD) 
that was removed from the form in the last administration. Restoring 
this column will improve the workplace injury and illness data 
collected by OSHA and BLS. Having more complete and accurate data will 
further our understanding of work-related MSDs, which is certainly 
beneficial to any ergonomics research, and also better inform employers 
about ergonomic hazards in their workplaces.
    OSHA has also launched a recordkeeping NEP, which will help ensure 
that musculoskeletal injuries are being recorded accurately by 
employers filling out the OSHA recordkeeping logs.
    OSHA plans to continue to use the general duty clause, when 
appropriate, for enforcement when inspections find unaddressed hazards 
causing or likely to cause musculoskeletal injuries.
                       evaluations of state plans
    Question. The subcommittee provided additional funding under the 
OSHA State Plan program to help State Plan States rebuild capacity that 
has been lost in recent years. OSHA has also announced plans to conduct 
baseline special evaluations of each State plan during fiscal year 
2010. These evaluations seek to better assess the current performance 
of each State plan and identify issues of concern.
    What is the timeline for assessing these plans? How will OSHA help 
State Plans address deficiencies identified during these evaluations? 
How will the 2011 budget request help meet the requirement that State 
plans be at least as effective as Federal programs?
    Answer. Since December 2009, OSHA regional offices have been 
conducting enhanced evaluations of State plan performance during fiscal 
year 2009. These reviews, which emphasize enforcement, are in the 
process of being completed, and we plan to issue the special baseline 
evaluation reports by early this summer. Upon completion of the 
reports, the States will be expected to develop corrective action plans 
with timetables to address any deficiencies identified. We do not 
expect to find significant deficiencies in all State plans, but will 
continue to address problems that we do find and ensure that the State 
plans fulfill their commitments for effective programs. OSHA offers 
formal training to State plans and will provide informal training and 
technical assistance at the regional level upon request in areas such 
as accident investigations and enforcement of specific standards. In 
addition, OSHA will continue to communicate with States and monitor 
their progress in meeting their commitments as part of the national 
OSHA program.
    The additional $1.5 million in grant funding requested for the 
States in fiscal year 2011 is intended to provide additional funding 
for increased personnel, staff training and equipment, and specific 
enforcement initiatives, which should enable the State programs to 
better keep pace with Federal developments and remain at least as 
effective as the Federal program. This funding should also allow all 
States to fill vacant positions and prevent them from reducing their 
programs due to budget shortfalls. As the economy improves, States are 
expected to use the additional funds for program enhancements.
                       timelines for rulemakings
    Question. Please identify the timelines for completion of the 
safety and health standards work with respect to notices of proposed 
rulemaking (four expected in each of fiscal years 2010 and 2011) and 
final rules (five expected in fiscal year 2010 and four expected in 
fiscal year 2011).
    Answer. OSHA is revising its regulatory agenda to reflect the 
administration's priorities and new initiatives. The regulatory program 
is being expanded with the additional personnel authorized in the 
fiscal year 2010 budget, and the expansion will continue if the 
additional resources requested in fiscal year 2011 are provided. Five 
proposed rules are planned during fiscal year 2010. On January 29, 
2010, OSHA published a proposal for a musculoskeletal column on the 
OSHA 300 injury and illness log, and received comments until March 30, 
2010. The agency is reviewing the comments, and anticipates publishing 
a final rule in July 2010. Additionally, a proposal for walking and 
working surfaces will be published this spring. Proposals for standards 
improvement and consultation agreements are in the final stages of 
review, and will also be published soon. Finally, a proposal and direct 
final rule to implement a court remand for the hexavalent chromium rule 
were published on March 16, 2010, and the direct final rule is 
anticipated to become effective during fiscal year 2010.
    In addition to the hexavalent chromium and musculoskeletal 
disorders column rulemakings, OSHA is on target to publish five other 
final rules during fiscal year 2010. Three of these, including two 
whistleblower standards and the final rule for construction cranes and 
derricks, are considered to be high-priority rulemakings. The cranes 
and derricks rule was submitted to the Office of Management and Budget 
(OMB) for Executive Order review on April 7. The other two rules are 
currently in internal review, pending submission to OMB. OSHA has also 
completed final actions for the abbreviated Portacount respirator fit-
testing method rulemaking and the acetylene consensus standards update.
    OSHA projects that the agency will publish four proposals in fiscal 
year 2011. Two new, high-priority items were added to the spring 
regulatory agenda, a rulemaking on injury and illness prevention 
programs and one to modernize OSHA's injury and illness recordkeeping 
regulations. The next step for the injury and illness prevention 
programs rulemaking is to hold stakeholder meetings in anticipation of 
publishing a proposal during fiscal year 2011. Additionally, during 
fiscal year 2011, the agency plans to publish proposed rules for 
beryllium, silica, and an update of the injury and illness 
recordkeeping industry exemptions to be consistent with newer industry 
classification systems.
    OSHA plans to publish five final rules during fiscal year 2011. The 
final rules for nationally recognized testing laboratories, 
consultation agreements, and shipyard general working conditions are 
anticipated to be completed at the beginning of fiscal year 2011. The 
final rule for electric power and generation is also on track for 
publication in fiscal year 2011. Finally, the hearings to update the 
hazard communication rule have been completed, and the posthearing 
comment period will close on May 31, 2010. After OSHA reviews the 
comments received, the agency will begin work on the final rule--
preamble, regulatory text, and economic analyses--which is projected to 
be published in fiscal year 2011.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
          senior community service employment program (scsep)
    Question. In 2010, funds appropriated for the SCSEP were increased 
to provide more opportunities in paid community service training and 
service for unemployed, low-income older persons.
    What plans do you have for future support of this dramatic increase 
in funding for a program of considerable importance to low-income 
seniors and community service agencies throughout the country?
    Answer. The fiscal year 2011 budget requests a total of 
$600,425,000 for the SCSEP. This amount equals the base amount of the 
fiscal year 2010 appropriation and is a $28.5 million increase more 
than fiscal year 2009. The fiscal year 2010 appropriation of 
$825,425,000 included a one-time special infusion of $225 million into 
SCSEP to quickly serve additional unemployed, low-income seniors in the 
current difficult economic times. However, as the economy continues to 
improve, we believe that the fiscal year 2011 budget request of 
$600,425,000 is appropriate and will provide part-time employment 
opportunities in community service for low-income older workers.
    In part, due to the recession, many seniors have expressed a need 
for skill training funds specifically appropriated for low income older 
workers in the Workforce Investment Act (WIA) funded one-stop centers.
    Question. How is the Department of Labor (DOL) planning to address 
the needs of a growing older population of job seekers in the workforce 
development system in the near to intermediate term?
    Answer. Older workers will account for an increasingly large 
portion of America's workforce in the decades ahead. The public 
workforce system under the WIA has served an increasing number of older 
workers over the past few years and currently provides job training and 
employment services to older workers at a rate roughly equal to their 
share of the total unemployed workforce.
    DOL plans to address the needs of this growing older population of 
job seekers in several ways. We will continue to help employers 
recognize the value of older workers as talented and productive 
employees and as mentors to younger workers. Last summer, we invested 
$10 million in 10 demonstration grants under the Aging Worker 
Initiative (AWI). These grants are designed to expand the public 
workforce investment system's understanding of how to best serve older 
workers, and develop models to share with all local workforce 
investment areas. AWI focuses on providing training and related 
services to individuals 55 and older that result in employment and 
advancement opportunities in high-growth sectors. Its ultimate goal is 
to provide better, more expansive services to older Americans for many 
years to come. In fiscal year 2011, DOL will utilize the results of the 
AWI demonstration grants to build the capacity of the public workforce 
system to better serve additional older workers who need and want good 
jobs. DOL will build on lessons learned and its experience under the 
``regular'' SCSEP and additional American Recovery and Reinvestment Act 
(ARRA) investments to encourage and expand ``green'' jobs opportunities 
for older, low-income workers. In addition, DOL will continue to 
encourage the One-Stop Career Center system to increase its role in 
assisting older workers who want to update their skills, helping job-
ready older workers obtain employment, and breaking down the barriers 
to fair and diverse work places for older workers.
    The national sponsor for the SCSEP serving American Indians often 
operates in areas with unemployment rates considerably higher than the 
average for the United States. This makes placement into unsubsidized 
employment extremely difficult and reflects poorly on the sponsor's 
evaluation.
    Question. Does DOL have plans for recognizing local unemployment 
conditions when evaluating placement rates for national sponsors 
serving seniors in such areas?
    Answer. DOL currently takes into account local economic conditions 
during the annual performance goal negotiation process with each 
grantee, including two grantees that serve primarily the American 
Indian community--the National Indian Council on Aging and the 
Institute for Indian Development. The past performance of each SCSEP 
grantee (which reflects conditions faced at the local level) is also a 
key factor in determining performance goals. During the annual 
negotiation process with DOL, each grantee is urged to present 
information about unemployment and other economic factors which create 
additional barriers to meeting performance goals. In addition, any 
grantee may present new information during the program year regarding 
local or regional economic or environmental emergencies that could 
justify an adjustment of goals. Mid-year goal adjustments can also be 
made based on national economic conditions.
    The national sponsor serving Asian and Pacific Island aging 
communities through SCSEP has articulated high barriers to providing 
service: 85-95 percent of enrollees have limited or non-English 
speaking proficiency (depending on the project site), some have 
literacy issues, and many are new immigrants with limited U.S. work 
history and access to social security or pensions. In short, this 
sponsor reaches out to the most difficult to serve and vulnerable of 
our seniors. These characteristics make it unrealistic to continuously 
meet performance requirements. A distinct challenge, for example, is 
the average earnings performance measure which requires that enrollee 
who exit the program for unsubsidized employment earn an average 
$13,000 per year. The sponsor considers it a success when enrollees 
move on to unsubsidized employment, particularly with benefits. 
However, evaluating program performance based on earnings level 
penalizes an otherwise successful performance.
    Question. What is DOL doing to address these special situations 
with SCSEP so as to minimize the negative aspects of a ``one size fits 
all'' approach to performance evaluation?
    Answer. DOL does not use a ``one size fits all'' approach to 
performance evaluation; rather it takes into account labor market and 
economic conditions. For example, the National Asian Pacific Center on 
Aging (NAPCA) serves a large number of participants with language 
barriers--89 percent in the four quarters ending December 31, 2009--and 
its overall performance is good. While NAPCA has not yet met its 
negotiated entered employment rate goal of 39.9 percent for the 6-month 
period between July 1 and December 31, 2009, it has exceeded its 
average earnings goal of $6,490 for SCSEP participants placed in 
unsubsidized full- or part-time employment. In addition, its employment 
retention goal for participants who obtained employment is only 0.1 
percent below the performance goal of 67.6 percent for that time 
period.
    The Employment and Training Administration (ETA) is currently in 
the process of implementing a regression-based model for the major 
programs in the workforce system. This regression-based model addresses 
the negative aspects of a ``one size fits all'' approach to performance 
management because it applies economic conditions, such as the 
unemployment rate, and program participant characteristics to adjust 
program goals and targets. ETA is currently applying this model to the 
SCSEP national performance goals and plans to extend the model to State 
and local areas over the next 2 years.
    National sponsors of the SCSEP serving American Indians and Asian 
Pacific Islander Americans are often limited to serving only those 
enrollees in the counties assigned by DOL. This leaves large segments 
of the American Indian and Asian Pacific Islander American seniors 
inaccessible to these national sponsors best-equipped to serve these 
elders in terms of language and cultural sensitivities.
    Question. What can DOL do to better align these national sponsors 
with the seniors they are equipped to and charged with serving?
    Answer. Current legislation directs DOL to allocate authorized 
positions on a county level. Because the American Indian and Asian 
Pacific Islander populations are widely dispersed, DOL requires each 
SCSEP grantee to serve the minority individuals residing in the 
county(s) where they provide service. Nationally, SCSEP serves a 
substantially higher proportion of minorities than their incidence in 
the population. For example, 48.9 percent of SCSEP participants are 
minority compared with 36.8 percent in the U.S. population. SCSEP also 
serves slightly higher proportions of three specific minority groups--
Blacks, American Indians, and Pacific Islanders--than their incidence 
in the population. The following table shows the distribution of 
minority participants served by the SCSEP grantees as a whole and by 
each of the three current minority grantees during calendar year 2009.

----------------------------------------------------------------------------------------------------------------
                                                   Number served   Number served   Number served
                                   Total number       by the          by the          by the         Total for
   SCSEP minority participants     served by all  National Asian     National      Institute for     minority
                                  SCSEP grantees  Pacific Center  Indian Council      Indian         grantees
                                                     on Aging        on Aging       Development
----------------------------------------------------------------------------------------------------------------
Hispanic, Latino, or Spanish ori-          9,660              21              57               1              79
   gin..........................
American Indian or Alaska Native           2,160               1             438              24             463
Asian...........................           2,696             736               7  ..............             743
Black or African American.......          27,135              44              71              98             213
Native Hawaiian or Pacific                   598              13               1  ..............              14
 Island-  er....................
----------------------------------------------------------------------------------------------------------------

    We are working to complete a report on service to minorities and 
will have more recent data in a few weeks. In the interim, the 
following table demonstrates the percentage of minority groups served 
by the SCSEP in comparison to the percentage of minority groups in the 
U.S. population aged 55 and older as of 2006. Data from the past 2 
years show no disparities in service that impact minorities overall and 
few for individual minority groups.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As the economy slows, global competition intensifies, and energy 
costs rise, many industries such as agriculture are releasing workers. 
Nowhere is this more evident than in Hawaii with the termination of all 
dairy operations on the island of Oahu and the rapid collapse of 
century-old sugarcane and pineapple plantations throughout the State. 
These dramatic changes are occurring at a time of increased awareness 
of Hawaii's fragile food security and increased need for food safety at 
all levels of the food production chain.
    Question. What steps are you taking to harness the potential of 
dislocated agricultural workers to address the unique food security and 
food safety issues found in Hawaii?
    Answer. The WIA of 1998 established a decentralized public 
workforce system where information about and access to a wide array of 
job training and employment services are available through local One-
Stop Career Centers. DOL allocates WIA funds to States using statutory 
formulas, and States such as Hawaii, in turn, use similar formulas to 
allocate funds to local workforce areas to be administered by local 
workforce investment boards that plan and oversee the local system.
    Workers that lose their jobs can access three levels of service 
through local One-Stop Career Centers: (a) ``core'' services including 
outreach, job search and placement assistance, and labor market 
information; (b) ``intensive'' services including comprehensive 
assessments, development of individual employment plans, career 
planning and counseling, and supportive services such as child care and 
transportation; and (c) ``training'' services, including occupational 
classroom or on the job training that can be combined with basic skills 
training, and entrepreneurial training. Eligible farmworkers in Hawaii 
also can access a range of services through the National Farmworker 
Jobs Program grantee Maui Economic Opportunity, Inc. located in 
Wailuku. Thus, Hawaii is well-positioned to address the needs of the 
local economy and to help workers affected by the termination of food 
production operations transition to good jobs. As the State of Hawaii 
develops policies and strategies to address food security and food 
safety issues, the public workforce system will be available to support 
its workforce development needs.
    Question. Can you share your DOL's vision of what a robust, highly 
effective summer jobs program looks like, how we get there, and how we 
make it as inclusive and responsive to the needs of all eligible youth?
    Answer. A robust, highly effective summer jobs program would 
include a broad outreach and recruitment strategy focusing on both in-
school youth and disconnected, out-of-school youth; broad employer 
outreach in both the public and private sector to ensure a broad range 
of summer job options for youth including opportunities in high-growth 
or high-demand industries such as healthcare and green jobs; and, an 
assessment of each youth's skill level, interests, and needs in order 
to match them to the summer job that would provide the, greatest 
benefit for them and their employers. In addition, such a summer jobs 
program would offer a thorough orientation for both youth and 
employers; work readiness training for youth to prepare them for their 
summer job; a monitoring strategy for both youth and worksites to 
ensure quality work experiences and to provide support to both youth 
and employers if any issues with the youth's employment arise; and 
transition services following summer employment to ensure youth 
successfully transition into education or to unsubsidized employment. 
Through the implementation of summer employment opportunities under 
ARRA, local programs are on their way to achieving this vision, and 
through DOL's fiscal year 2011 budget request for a Youth Innovation 
Fund, DOL will fund innovative summer employment models to continue 
these efforts and learn which particular approaches produce the best 
employment and educational outcomes for youth. The strategies 
identified above will assist in making summer employment programs 
inclusive, responsive to the needs of all eligible youth, and benefit 
local communities.
                            apprenticeships
    Question. Madam Secretary, I believe we have an underappreciated 
and underutilized jewel in our Nation's apprenticeship system. As you 
know, exceptional apprenticeship programs combine rigorous academic and 
technical instruction with authentic, on-the-job training and learning. 
As a result, these programs are highly valued by employers, unions, and 
students.
    How we can continue to grow our apprenticeship programs, and 
rebuild our Nation's ability to fill middle and high-skills occupations 
and grow key industries, such as those in the emerging green economy?
    Answer. ETA continues to focus on expanding registered 
apprenticeship opportunities for America's workers, enabling them to 
``learn while earning'' along career paths to middle- and high-skilled 
occupations, particularly those in high-growth industries and the 
emerging green economy. DOL's efforts have centered on: (a) expanding 
resources available to the National Apprenticeship System; (b) 
increasing the budget for the Office of Apprenticeship to plan, 
encourage, and register apprenticeship programs; and (c) promoting 
partnerships between the broader workforce system and registered 
apprenticeship programs.
    For example, a significant number of DOL's recently awarded ARRA 
competitive grants included registered apprenticeship as a critical 
partner in training and employing thousands of workers in green 
industries and occupations. In addition, DOL recently awarded $6.5 
million in grant funds to 11 national organizations to expand and 
advance apprenticeship programs, with many upgrading their training 
efforts to meet the needs of the emerging green economy. Finally, DOL's 
fiscal year 2011 budget request includes a proposal for an employer-
paid fee on H-2B visas that would support a new grant initiative to 
expand registered apprenticeship at the national, State, and local 
levels.
    DOL's fiscal year 2011 budget would increase the budget for the 
Office of Apprenticeship by approximately 35 percent from the fiscal 
year 2009 budget of about $21 million. This increase will ensure that 
the Office of Apprenticeship will meet its core responsibilities for 
the promotion of registered apprenticeship, partnering with State 
agencies, protecting the welfare of America's apprentices, ensuring 
equal opportunity, and fulfilling new responsibilities resulting from 
recent regulations that strengthen performance accountability for the 
National Apprenticeship System.
    DOL also encourages State and local workforce agencies and boards 
to expand registered apprenticeship programs that can prepare workers 
for careers in the renewable energy sectors and for other ``green 
jobs''. We have developed, offered, and plan to expand a series of 
regional ``Collaborate for Success: Partnering with Registered 
Apprenticeship Action Clinics'' where State-based teams learn how to 
incorporate registered apprenticeship into their workforce development 
strategies and learn how to improve partnerships with community 
colleges, community-based organizations, healthcare providers, 
``green'' employers, and economic development entities.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                             state programs
    Question. Along with 26 other States, my home State of Washington, 
under an agreement with Occupational Safety and Health Administration 
(OSHA), operates an occupational safety and health program in 
accordance with section 18 of the Occupational Safety and Health Act of 
1970. Washington State's OSHA plan is administered by the Washington 
State Department of Labor and Industries. The departments' primary 
focus is on protecting the safety and welfare of Washington's 3 million 
plus workers with on-the-job safety and health through inspections and 
enforcement programs through voluntary consultations and training. They 
also help protect consumers from unsound building practices, combat 
illegal employment practices, and help develop the State's skilled 
workforce through apprenticeship programs. In years past the successes 
of our State programs has been jeopardized by the lack of funding from 
the Federal level to maintain current programs let alone to expand and 
implement new safety standards for new equipment and or technologies.
    Does the Department of Labor (DOL) have any ideas on how the State 
and Federal level can worker closer together to further implement 
workplace safety standards?
    Answer. OSHA and the States that operate approved State plans, 
including Washington State, maintain an ongoing partnership to ensure 
protection for all the Nation's workers. OSHA meets three times a year 
with the full membership of the Occupational Safety and Health State 
Plan Association (OSHSPA), which represents all 27 States operating 
State plans, and an additional three times a year with the OSHSPA Board 
of Directors. At these meetings, the attendees discuss Federal and 
State initiatives, and share information to enhance both Federal and 
State programs. OSHA's Regional Administrators and their staffs work 
with the State plans on a daily basis to coordinate efforts, provide 
technical assistance, and monitor their performance. State plan 
representatives serve on task forces with OSHA to address issues such 
as newly identified hazards and compliance initiatives. While States 
may focus their enforcement and outreach activities on State-specific 
industries and hazards, States also participate in OSHA National 
Emphasis Programs to address selected hazards on a nationwide basis.
    OSHA is also working with the States to broaden their participation 
in more of these national programs in the interest of greater 
nationwide consistency. The State plans all participate in OSHA's 
management information system; information on State inspections is 
available on OSHA's Web site and in its database in exactly the same 
manner and detail as OSHA's Federal inspections.
    Finally, in an effort to ensure that State plans are at least as 
effective as the Federal plan, we are currently conducting special 
reviews of all of the State plans, which will include recommendations 
on improvements they can make in their operations.
    Question. Can I have a commitment from you that we will continue to 
keep State OSHA plans fully funded and functional so as not to increase 
the heavy burden of inspections and cases handled on the Federal level?
    Answer. OSHA's State plan funding levels are set by Congress as 
part of the agency's annual appropriation, and OSHA will continue to 
distribute all available funds appropriated by Congress in accordance 
with the Act. No State plan is required by law to contribute more than 
a 50 percent match of the available Federal funds for the total costs 
to the State of their safety and health program. However, many States 
have chosen to contribute significant additional funding. Currently, 19 
of the 27 approved State plans, including Washington, contribute 
additional State funds over and above the amount that OSHA allocates to 
them from amounts made available for State plans in the agency's annual 
appropriation. The other eight States provide the 50 percent share, the 
same as the Federal funds made available to them.
    The fiscal year 2010 appropriation included an $11.8 million 
increase for State plans, the first significant funding increase in 
many years. The funds were distributed to States in accordance with a 
funding formula that takes into account a State's worker population and 
the extent to which its industries are hazardous. The eight States 
which were unable to match all or part of the increase for this fiscal 
year will be given until fiscal year 2012 to obtain matching funds. The 
fiscal year 2011 budget requests $105.9 million for State plan 
programs, an increase of $1.5 million from the fiscal year 2010 level.
                              regulations
    Question. On OSHA's rule on cranes and derricks--this rule to 
protect construction workers has been in the works for years and 
repeatedly delayed. The latest regulatory agenda says the final rule 
will be issued in July 2010.
    Is this rule on track to be issued by this date?
    Answer. Yes. The final rule for cranes and derricks has been 
submitted to the Office and Management and Budget in anticipation of a 
July 2010 publication date.
    After a number of years of inaction under the last administration, 
we appreciate that OSHA is now moving forward to develop and issue 
needed regulations. There are many serious hazards that need to be 
addressed. I would like to ask you about a few specific rules and when 
we might expect movement.
    Question. OSHA's rule on silica has also been repeatedly delayed. 
Will a proposed silica rule be issued in July as listed in the 
regulation agenda?
    Answer. Newly appointed Assistant Secretary David Michaels is 
providing strong leadership and is committed to moving forward with the 
silica rulemaking. OSHA recently completed a peer review of the health 
effects and risk assessment sections needed to develop the proposed 
rule. The agency is continuing to refine the scientific risk assessment 
and develop the robust economic analysis required to support a proposed 
rule; consequently, the proposal will not be issued in July as had been 
projected in last fall's regulatory agenda. Please be assured that the 
rulemaking for silica remains a high priority for the agency. OSHA is 
working to complete these analyses and the proposed rule is scheduled 
to be published in February 2011.
    Question. In 2007, 14 workers were killed at the Imperial sugar 
refinery in Georgia when sugar dust caused a deadly explosion. The 
Chemical Safety Board recommended that OSHA needs a regulation to 
prevent these kinds of explosions in the future.
    What are OSHA's plans for issuing a proposed rule and a final rule 
on combustible dust?
    Answer. On October 19, 2009, OSHA published an Advanced Notice of 
Proposed Rulemaking (ANPR) for combustible dust. The comment period 
officially closed in January 2010. More than 110 comments have been 
submitted, which are currently under review by OSHA personnel. On 
December 14, 2009, OSHA hosted two stakeholder meetings in Washington, 
DC. Two additional meetings were held in Atlanta, Georgia, on February 
17, 2010. Nearly 100 stakeholders have expressed their views to OSHA so 
far. Two more meetings are scheduled for Chicago on April 21, 2010.
    OSHA's economists are analyzing the responses to the ANPR and 
reviewing other sources of information to help analyze the economic 
impacts of a proposed rule. A Small Business Regulatory Fairness Act 
Panel is being planned for the spring of 2011 to solicit input on the 
potential economic impacts on small businesses. OSHA is drafting a 
proposed rule as it continues to conduct research, solicit and analyze 
input from stakeholders, and review responses to the ANPR. OSHA 
anticipates that a proposed rule for combustible dust will be published 
in 2012.
                           misclassification
    Question. As you know, we've been advocating, and the subcommittee 
has been focused on the problem of employee misclassification as 
independent contractors for some time now. Those efforts have resulted 
in the President's active support new budget proposals and a new joint 
Labor-Treasury initiative to ``strengthen and coordinate Federal and 
State efforts to enforce statutory prohibitions, identify, and deter 
misclassification of employees.'' The budget includes $25 million to 
support four program components.
    Misclassification not only deprives workers of numerous rights and 
benefits (e.g., overtime pay, the employer's share of Social Security 
and Medicare contributions, rights to a safe workplace, civil rights 
protections, etc.), but it also gives tax cheats an unfair advantage in 
competing for business over responsible employers who follow the law. 
And, at a time of significant budget deficits, it is a major source of 
revenue losses for the Federal and State governments.
    I was excited to see that this administration is being proactive 
about the problem of misclassification abuses.
    How soon will you be able to get this initiative up and running?
    Answer. Should the Congress provide the requested funds, the 
different elements that are a part of the initiative will be 
implemented at various points over the next year. The DOL's budget 
request for fiscal year 2011 includes $25 million for DOL, including 
$12 million for increased enforcement of wage and overtime laws in 
cases where employees have been misclassified; these funds will allow 
us to hire more investigators and provide better training on how to 
determine who is an employee and who is an independent contractor. Even 
though these funds will not be available until fiscal year 2011, we are 
already planning how best to target enforcement to identify and remedy 
widespread misclassification and we are emphasizing this issue in our 
current, fiscal year 2010 enforcement strategy.
    Question. The proposal indicates this is a ``joint Treasury-Labor 
initiative'' to detect and deter misclassification.
    What exactly will be the Department of the Treasury's role in this 
joint effort?
    Answer. DOL has established a working group, headed by the Wage and 
Hour Division (WHD) Deputy Administrator, which includes members from a 
number of DOL agencies, including OSHA and ETA. This working group is 
also working with the Vice President's Middle Class Task Force and the 
Department of the Treasury on a Government-wide effort to develop 
strategies to address misclassification.
    The Department of the Treasury is seeking legislation to allow it 
to better define and clarify worker classification standards--which 
benefits workers and firms by reducing uncertainty--and to 
prospectively reclassify misclassified workers. The President's budget 
estimates that this would increase Treasury receipts by more than $7 
billion over 10 years, much of it consisting of unpaid taxes.
    Question. I am glad to see that the portion of the initiative that 
will be implemented by the WHD is appropriately targeted to industries 
and employers that have been identified as having a record of 
significant misclassification violations.
    Can you elaborate on other aspects of the initiative that are 
designed to maximize your investigative resources, for instance 
coordination with State efforts?
    Answer. The DOL's working group is exploring ways for all DOL 
agencies to provide better guidance to both workers and employers and 
increase information sharing between DOL agencies. Over the next few 
months, the working group plans to bring in a diverse array of 
stakeholders, including unions, worker advocates, and employer groups, 
to get their input on misclassification and what steps we should take. 
We are also planning to meet with representatives from State 
misclassification task forces to learn from their experiences.
  --I think it is especially important that you have proposed a pilot 
        program of competitive grants to reward and help States that 
        have stepped up efforts to detect and prosecute 
        misclassification violations. These programs, usually 
        undertaken by State Unemployment Insurance Administrators, are 
        severely understaffed and underfunded.
    Question. What does the DOL hope to achieve with the grants 
program?
    Answer. An additional $10,950,000 is requested for the ETA for two 
initiatives focused on increasing the capacity to address 
misclassification within the Federal/State administered Unemployment 
Insurance program. The first initiative provides states the opportunity 
to compete for grants to increase their capacity to participate in data 
sharing activities with the IRS and other Federal and State agencies; 
to implement targeted audit strategies; establish a cross-State agency 
task force to target egregious employer schemes to avoid taxation 
through misclassification, and to develop education and outreach 
programs. The second initiative would pilot a high-performance award 
program designed to encourage States to improve misclassification 
efforts. States that are most successful (or most improved) at 
detecting and prosecuting employers that fail to pay their fair share 
of taxes due to misclassification and other illegal tax schemes will be 
rewarded.
                    bureau of labor statistics (bls)
    Question. Madam Secretary, the President's budget for the BLS 
includes a new initiative designed to restructure the Current 
Employment Statistics (CES) Program. This CES initiative proposes 
reducing funding to the State labor market information (LMI) agencies 
by $12 million (a 50+ percent reduction in BLS funding to the States 
for CES) while re-programming $7 million to fund BLS staff to make 
improvements in data collection and survey response rates. As proposed, 
the net savings to the CES program would be $5 million. BLS indicates 
that this change will have no net impact on data quality and variance 
at the national level. While this savings goal is laudable in this 
period of significant budget concerns, I have some concerns about the 
negative impact that this move could have on State LMI agencies in 
maintaining their capacity to generate, analyze, and disseminate data 
to State and local policymakers--especially when data is so critical to 
guiding people toward employment opportunities during this recovery.
    BLS indicates that this proposal will improve data quality overall 
and provides evidence that the proposed change to the CES program would 
have little impact on national employment estimates. However, a number 
of State LMI agencies have expressed concern that this move will reduce 
BLS' ability to access local knowledge in making estimates (given the 
reduction in State staff). The State LMI agencies also contend that the 
change will increase the variance for employment estimates reported in 
about one-third of the States (according to BLS's technical 
explanation). This greater variance in State or regional estimates will 
be much more difficult to explain to State or local policymakers using 
the data. The LMI agencies are responsible for explaining State 
estimates from this program to budget and tax revenue forecasters, 
economic developers, workforce developers, and other policy makers that 
rely on the CES to inform their decisionmaking. As proposed, this 
change would substantially reduce the State knowledge base in 
supporting user questions about this important program since fewer 
staff will be familiar with how the estimates are being generated and 
the rationale behind some variance.
    Furthermore, there is some concern that this ``centralization'' 
could have significant long-term implications for the Federal-State 
statistical system, first established during the Great Depression. 
Certainly, enormous advances in information technology have occurred 
since the program was put into place, providing opportunities for 
increased efficiencies and shifting responsibilities. This may be an 
appropriate time to conduct a thoughtful, thorough review of the 
current state of the Federal-State cooperative effort, not just for the 
Current Employment Statistics program, but also for other BLS data 
programs such as Local Area Unemployment Statistics, Occupational 
Employment Statistics, the Quarterly Census of Employment and Wages, 
and Mass Layoffs Statistics. Such a review would provide the basis for 
implementing a more considered, effective approach to a 21st system 
cooperative system, one that takes full advantage of the complementary 
strengths of BLS and the LMI agencies.
    Question. I'd like to ask DOL to provide a long-term vision for how 
the Federal-State statistical system is to be strengthened, improved 
and expanded. And I'd like to ask the department to consider 
undertaking a deliberative review of this Federal-State cooperative.
    Answer. The DOL thanks the Senator for sharing her concerns about 
the BLS proposal to restructure the CES program. While the proposal 
does reduce the number of State-funded positions, it reduces the 
workload on States commensurately. Moreover, the proposal allows for 
States to retain about 100 positions for collecting and providing BLS 
with local knowledge for making estimates, and for conducting analysis 
and dissemination of the estimates to State and local users.
    Regarding State concerns about the quality of the estimates, BLS 
research comparing State-made to BLS-made estimates indicates that 
about one-third of the former showed smaller errors (when benchmarked 
to the annual comprehensive employment count from the unemployment 
insurance system). However, BLS-made estimates were comparable in 
accuracy for one-third of States, and more accurate for another third 
of States. For this research, BLS made its estimates in a completely 
automated fashion with no analyst review or intervention in the 
estimation process. After the implementation of this proposal, 
estimation will be conducted by a staff of about 30 BLS analysts and 
the quality of BLS-made estimates for publication will be higher than 
the quality of the estimates generated for research purposes. In 
addition, the BLS-made estimates will reflect a consistent, objective, 
and transparent methodology across all States.
    Upon implementation, this proposal will reinvest a portion of the 
savings from restructuring to improve survey response rates and 
accelerate the rate at which the sample of businesses is refreshed. 
Both of these enhancements will contribute to reducing statistical 
error in the national, State, and area estimates. BLS staff would 
welcome the opportunity to meet to address any other questions on the 
CES restructuring proposal.
    The DOL continues to value Federal-State cooperation in the 
accomplishment of BLS statistical programs. Working through BLS, the 
DOL consults regularly with the State LMI agencies on strategies for 
strengthening and improving the statistical system. The fiscal year 
2011 budget request for BLS includes approximately $80 million in 
support of State operations on the five cooperative statistical 
programs. This amount also includes a request for additional resources 
for one of these programs--Occupational Employment Statistics (OES)--to 
improve the usefulness of OES data for identifying trends in 
occupational employment and wages. In particular, this initiative will 
improve the quality of OES data for State and local decisionmaking on 
investments in education and training programs. Lastly, the Department 
will take the suggestion to review the Federal-State cooperative 
programs into consideration.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                     voluntary protection programs
    Question. Currently, there are more than 100 sites in the Voluntary 
Protection Programs (VPP) in and actively pursuing VPP status in the 
State of Louisiana. Collectively, these sites employ approximately 
24,656 workers.
    How will the proposed shift in the Department of Labor's (DOL) 
Occupational Safety and Health Administration (OSHA) resources from 
compliance assistance to enforcement impact these VPP sites in terms of 
their ability to either obtain or retain VPP their ability to 
participate in the VPP in 2011?
    Answer. OSHA is not eliminating the VPP. However, OSHA is looking 
for other nongovernmental-funded ways to continue the program. Given 
the budgetary issues facing the Nation, the agency is making hard 
choices to use our limited resources where they are most needed.
    As a result, OSHA is reducing Federal resources spent on companies 
that fully understand and exercise their responsibility to protect 
their workers' health and safety to invest resources in companies that 
are not doing a good job protecting their employees. The agency 
recognizes the importance of the, VPP, and participating companies that 
have made a valuable contribution to workplace safety by going above 
and beyond OSHA's requirements and serving as models for others.
    According to Government Accountability Office (GAO) report on the 
VPP published in May 2009, approximately 80 percent of VPP worksites 
have fewer than 500 employees.
    Question. Has OSHA studied and concluded separately on the impact 
on small businesses of the fiscal year 2011 DOL budget proposal to 
shift OSHA resources from compliance assistance to enforcement? What 
are OSHA's plans to review the impact on small businesses that 
participate in the VPP of implementing a user fee system to fund VPP?
    Answer. Currently, 99 of 1,644 Federal VPP sites--or 6 percent of 
the total--meet the small business definition (i.e., 250 or fewer 
employees and not part of a corporation/organization with 500 or more 
employees.) Only 30 percent of all workers are employed in 
establishments larger than 250 employees. In other words, 94 percent of 
VPP sites are part of large companies where only 30 percent of 
Americans work.
    In addition, OSHA's fiscal year 2011 budget includes a $1 million 
increase for the State Consultation Program, which provides free on-
site consultative services for small businesses that request assistance 
in achieving voluntary employee protection. The Consultation Program is 
particularly useful to small businesses, and the additional funding 
requested in fiscal year 2011 will help meet the demand from small 
employers seeking assistance to come into compliance with OSHA 
requirements
    The May 2009 GAO report found merit in the VPP programs overall, 
but that OSHA had not developed goals or measures to assess the 
performance of the VPP, and the agency's efforts to evaluate the 
program's effectiveness had not been adequate. OSHA generally agreed 
with the GAO report's recommendations to develop procedures and 
measures to assess the performance of the VPP.
    Question. What is the current status of implementing the 
recommendations from the GAO report for assessing the performance of 
the VPP?
    Answer. OSHA is currently reassessing all aspects of the VPP due in 
part to the GAO report of May 2009. At the same time, OSHA is an active 
participant in the Department-wide 2010-2016 strategic planning process 
and is formulating new performance measures for all of its programs.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
    Question. There are more than 16,000 public libraries in the United 
States, most of which provide job/career information and resources, 
such as access to computers so that patrons can search for jobs and 
file for government services such as unemployment benefits. In the 
economic downturn, libraries are a community resource increasingly in 
demand, especially by those who are unemployed.
    How will the Department of Labor (DOL) work to better integrate 
libraries into our workforce system so that they receive the support 
they need to continue providing these services to the public?
    Answer. DOL, Employment and Training Administration (ETA) has 
entered into a partnership with the Institute for Museum and Library 
Services (IMLS) in recognition of the critical role that both the 
public workforce system and the Nation's public libraries play in 
responding to jobseekers' needs. The goal of the partnership is to 
encourage libraries and the workforce system to collaborate at the 
State and local levels, resulting in increased employment and training 
services to job seekers that lead to good jobs, including career 
pathways and sustainable wages.
    ETA and IMLS are engaged in a number of activities to support 
libraries in meeting the growing employment needs of their patrons. For 
example, ETA has already incorporated libraries and existing co-
locations between libraries and One-Stop Career Centers into America's 
Service Locator (www.servicelocator.org), an online search tool for 
local service providers. This allows a library patron or job seeker to 
locate the nearest One-Stop Career Center and library within their 
community so that they can access the employment and training services 
they need. ETA is preparing to announce the ETA/IMLS partnership to the 
workforce system, including the announcement of successful 
collaborations between libraries and the public workforce system, and 
to encourage development of such partnerships at the State and local 
levels.
    In addition, ETA has shared information about the employment and 
training resources available through the public workforce system with 
IMLS and its strategic partners. For example, ETA has begun to 
disseminate information about its national electronic tools, including 
CareerOneStop (www.careeronestop.org) and the occupational database 
O*NET (www.onlineonetcenter.org), that provide important career 
information and resources to individual libraries and library systems. 
ETA also plans to conduct a webinar to orient and train librarians and 
other staff to the electronic tools, which are accessible to library 
patrons and other job seekers anytime at any physical location via the 
Internet. Lastly, ETA staff is using library newsletters and other 
dissemination channels to inform the library community about events and 
developments that are relevant to workforce development and this 
partnership.
    In comparison to the more than 16,000 public libraries, there are 
roughly 1,800 federally funded ``One-Stop'' Career Centers under the 
Workforce Investment Act. There is some evidence that the unemployed 
are opting to use their local library for the services that the One-
Stops are designed to provide due to location or other reasons. It has 
also been reported that some of these centers refer users to their 
local libraries for additional job search assistance. At the same time, 
there are some examples of libraries and local workforce development 
organizations working together to provide help to job seekers, such as 
in North Carolina.
    Question. What are your thoughts on ways we can support and expand 
these collaborations to best serve job seekers?
    Answer. Partnerships between the Nation's public workforce system 
and the library system increases the access points by which job seekers 
can receive critical career information and job assistance. ETA plans 
to announce the existing partnership between ETA and the IMLS at the 
Federal level and encourage partnerships at the State and local levels. 
This will be followed by an ETA-sponsored webinar for the public 
workforce system this summer that showcases promising examples of 
collaboration. Examples of partnership activities to be highlighted 
include:
  --co-locating One-Stop Career Centers and libraries;
  --collaborating to train library staff about employment and training 
        resources available through the public workforce system;
  --using library space to provide services to library patrons, (e.g., 
        familiarizing them with career resources offered through the 
        public workforce system and available electronically) or to 
        host career events (e.g., career fairs); and
  --sharing workforce and labor market information, including data on 
        high-growth industries and occupations, from the public 
        workforce system to libraries.
    Both ETA and IMLS are engaging their respective systems' 
intergovernmental and other stakeholder organizations to identify 
examples of existing partnership activities that can be widely shared 
with leaders from the workforce and library systems. For example, 
during a National Governors Association event, ETA, IMLS, and workforce 
system and library leaders from the State of North Carolina discussed 
State level partnerships. In addition, ETA is also collaborating with 
the National Association of State Workforce Agencies and the National 
Association of Workforce Boards to identify promising collaborations at 
the State and local levels. Collaborative efforts will include the 
utilization of the Reemployment Works! Community of Practice--a virtual 
community for workforce professionals dedicated to exchanging promising 
practices, tools, and resources for connecting unemployed individuals 
with careers--to disseminate information and strategies about how 
partnerships between the public workforce and library systems can help 
jobseekers find new jobs and enter career pathways.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
     workforce investment act (wia) workforce innovation fund (wif)
    Question. WIA provides job training and related services to 
unemployed and underemployed individuals including programs for adults, 
youth, dislocated workers, and others. As part of the partnership for 
WIF with the Department of Education, the budget proposes to reserve 5 
percent of the appropriation for adult and dislocated worker programs 
to form a new WIF and 15 percent of the appropriation for youth 
services to create a Youth Innovation Fund. Innovation funding would 
provide grants to test new practices of expanding and improving 
services and outcomes in the workforce development system and to 
replicate promising or proven workforce strategies, such as 
apprenticeships and on-the-job-training.
    Note: According to the Bureau of Labor Statistics, the seasonally 
adjusted unemployment rate for youth (16-24) nationwide is 18.5 percent 
for February 2010. In Mississippi, the overall unemployment rate is 
10.9 percent (no State data is available specifically for Mississippi 
youth)
    Given the high levels of youth unemployment, why is the Employment 
and Training Administration (ETA) proposing a cut (fiscal year 2011 
compared to fiscal year 2010) in State formula grants for youth 
activities?
    Answer. In fiscal year 2011, the Department of Labor (DOL) is 
requesting $1,025,000,000 to support WIA youth formula activities, an 
increase of $100,931,000 more than the fiscal year 2010 level. The 
fiscal year 2011 target for participants is 306,998, which includes 
266,274 Formula Grant participants and 40,724 Youth Innovation Fund 
participants. This is an increase of 24,572 participants more than the 
fiscal year 2010 target. Fifteen percent ($153.75 million) of the 
request would be dedicated to testing and validating strategies for 
improving service delivery and outcomes for at-risk youth through the 
Youth Innovation Fund. The funds allotted to local workforce areas to 
provide services are not reduced; the 2011 request reduces the State 
reserve from 15 to 10 percent, so the share for local services is 
unaffected.
    The Youth Innovation Fund will fund and rigorously evaluate 
innovative approaches to providing education and employment services to 
at-risk youth, particularly out-of-school youth. It will have two 
components: Summer and Year-Round Employment grants and Work Experience 
Plus grants. The Summer and Year-Round Employment grants will support 
paid work experiences for both in-school and out-of-school youth. The 
Work Experience Plus grants will allow local workforce investment 
boards, working in partnership with youth service providers, Governors 
and State workforce boards, to test innovative approaches for serving 
out-of-school youth in a comprehensive manner, combining work 
experience, education, and support services. Work Experience Plus 
programs will seek to help youth disconnected from education and from 
work move into postsecondary education leading to industry-based 
credentials, degrees, and employment. DOL expects that the Youth 
Innovation Fund ultimately will provide for more effective use of WIA 
formula funds through innovation and learning about what works for at-
risk youth.
    Question. Are the proposed innovation grants multi-year grants and 
would they require funding in subsequent years?
    Answer. In fiscal year 2011, DOL envisions the Innovation Fund 
grants would be competitively awarded as multi-year grants. DOL 
believes multi-year grants are needed to allow adequate time to test 
and evaluate the innovative models and approaches that the Innovation 
Funds are designed to encourage. The Innovation Funds are proposed as a 
means of driving reform and continuous improvement, encouraging 
cooperation across programs and regions, and allowing the 
identification and replication of evidence-based approaches. DOL looks 
forward to working with Congress to support the Innovation Funds in WIA 
reauthorization and in subsequent years.
    Question. If these proposed innovation grants are intended as 
multi-year grants, what are the proposed periods (e.g., 3 years, 5 
years)?
    Answer. DOL anticipates that the Innovation Fund grants will be 
multi-year grants, generally of up to 3 years. A multi-year approach 
offers grantees sufficient time to test their approaches, allow for 
flexibility where needed, and provide DOL with sufficient time to carry 
out a review or evaluation of the grant and other administrative 
responsibilities, such as grant close-out activities.
                               job corps
    Question.
    In prior years, DOL indicated that the appropriations for 
construction would be used to improve the condition of facilities at 
Job Corps centers. Specifically, DOL would place emphasis on the 
backlog of repairs on existing buildings and disposal of ``surplus, 
nonmission-dependent properties.''
    What are the specific program efficiencies DOL is seeking to 
improve?
    Answer. The Office of Job Corps expects to improve efficiencies in 
several areas. For example, we will use a multi-pronged approach to 
reduce increasing utility and fuel costs. The program is reducing its 
General Services Administration vehicle fleet, and replacing 
traditional vehicles with alternative energy-efficient electric 
vehicles for use on centers. Construction projects funded under the 
American Recovery and Reinvestment Act (ARRA) have included energy 
efficient upgrades that will reduce utilities costs at Job Corps center 
facilities. To complement these efforts, we have implemented a 
nationwide energy conservation campaign, funded by ARRA, which promotes 
the adoption of green practices by students and staff. Further, our new 
Job Corps centers are being built to Leadership in Energy and 
Environmental Design specifications and will be state-of-the-art, 
energy-efficient facilities.
    Job Corps also is working to maximize centers' slot capacity 
utilization. The program anticipates an increase in students' average 
length of stay as a result of our rigorous career technical training 
system that includes industry-focused foundation courses for new 
students and the incorporation of industry-recognized certifications. 
Students must remain in the program longer to complete these program 
requirements. This increased retention will reduce costly student 
turnover.
    Finally, Job Corps is exploring ways to decrease the cost of large 
scale on-center services, such as basic medical care and prescription 
drugs, without compromising the quality or provision of these services 
to students. The program also will evaluate its discretionary national 
office support contracts for possible reduction or conversion to 
Federal staff.
    Question. How will DOL determine whether the benefits gained from 
transferring funds to operations will be greater than the benefits lost 
from less construction and renovation?
    Answer. With the majority of shovel-ready projects already funded 
by the Recovery Act, the program anticipates no material loss to 
construction and renovation. In fact, over the coming months, Job Corps 
will be undergoing a large design phase to prepare construction 
projects for launch. Any decision to transfer funding would be preceded 
by a thorough review of the relative costs and benefits.
                      foreign labor certification
    Question. What specific steps is DOL taking to detect and deter 
fraud in the foreign labor certification process?
    Answer. Within the ETA, the Office of Foreign Labor Certification 
(OFLC) undertakes a number of steps to both detect and deter fraud in 
the programs for which it has responsibility. These actions vary by 
visa program depending upon specific authorities, e.g. statutory and 
regulatory authorizations available to the OFLC. Many ``triggers'' or 
``flags'' are built into application processing systems, both 
electronically and manually, in order to detect and prevent fraud from 
occurring.
    Examples of specific actions include: (1) validating that the 
application OFLC receives was submitted by that employer and not 
someone fraudulently filing in their name; (2) verifying employer 
Federal Employer Identification Numbers; and (3) checking debarment 
tables, and other internal measures. In addition, OFLC extensively uses 
its audit authority and a request for information process when 
questions and/or concerns arise about an application, an employer, or 
its representative. Frequently applications are placed into audit when 
there are concerns about the availability of U.S. workers for the 
requested position, employer responses which trigger an audit, e.g., 
recruitment period not consistent with program requirements, etc. When 
and wherever appropriate, OFLC utilizes its debarment and revocation 
authority as additional means of insuring program integrity. OFLC also 
participates in the ongoing investigation and where necessary, 
prosecution of individuals involved in suspected instances of fraud. 
OFLC, along with DOL 's Wage and Hour Division, participates in Office 
of Inspector General investigations, provides expert testimony at grand 
jury trials, as well as contribute to other Federal agency 
investigations.
    Question. Employers wishing to hire foreign workers often express 
frustration with the labor condition application (LCA) process and 
describe it as unresponsive to their need to hire people expeditiously.
    What are the current backlogs, if any, by visa type, and what is 
the average ``turn-around'' time to process LCAs?
    Answer. ETA's OFLC administers four major foreign labor 
certification programs:
  --Permanent Labor Certification Program (PERM or the Green Card)
  --H-1B Specialty Occupations Program (LCAs)
  --H-2A Temporary Agricultural Program
  --H-2B Temporary Non-Agricultural Program
    The table below displays the application process and current case 
processing times for each of these programs. The Immigration and 
Nationality Act specifically requires the Secretary of Labor, prior to 
granting a labor certification, to insure that the employment of the 
foreign worker will not adversely impact the wages and working 
conditions of similarly employed U.S. workers. The OFLC also must 
determine there are no available U.S. workers for the requested 
position. These statutory obligations mean that to provide America's 
workers with opportunities to access jobs there is greater scrutiny of 
occupations and employers with pending applications in labor markets 
impacted by the layoffs.
    In November 2009, ETA initiated an intensive effort designed to 
reduce PERM's backlog of cases. Its goal for fiscal year 2010 is to 
reduce the backlog by 50 percent to approximately 35,000 cases. We are 
on schedule, and we will continue this effort as part of our larger DOL 
commitment to customer service.

                               TABLE 1A.--ETA OFLC VISA CASE PROCESSING REPORT, FISCAL YEAR 2010 (THROUGH MARCH 31, 2010)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                   Total applications processed                                       Active workload
                                 -----------------------------------------------------------------------------------------------------------------------
          Visa category                                                                                                                 Average ``turn
                                      Totals         Certified        Denied         Withdrawn     Pending cases        Backlog          around'' time
--------------------------------------------------------------------------------------------------------------------------------------------------------
PERM............................          40,299          35,051           3,809           1,439          48,306  Yes...............  11 months
H-1B............................         152,630         127,201          20,834           4,595           7,031  No................  4-5 days
H-2B............................           3,199           2,738             461  ..............             120  No................  16 days
H-2A............................           3,415           2,961              76              78             334  No................  22 days
                                 -----------------------------------------------------------------------------------------------------------------------
      Fiscal year 2010 grand             199,243         167,951          25,180           6,112          55,791
       total.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: Administrative records extracted from the ETA-OFLC Case Management Systems.

    Question. The U.S. economy entered into a recession in December 
2007. Although some economic indicators suggest that growth has 
resumed, unemployment remains high and is projected to remain so for 
some time. Since 2008, how many LCAs has DOL approved annually?
    Answer. The following table displays case processing information 
for fiscal year 2008, fiscal year 2009, and 50 percent of the year for 
fiscal year 2010. With the exception of the H-1B Program (excluded by 
statute), all of the programs have required ``testing'' of the local 
labor market prior to the approval and granting of labor certification 
to insure domestic workers are fully considered for the job 
opportunity.

               TABLE 1B.--ETA OFLC SUMMARY REPORT, FISCAL YEAR 2008-2010 (THROUGH MARCH 31, 2010)
----------------------------------------------------------------------------------------------------------------
                          Visa category                                2008            2009          2010 \1\
----------------------------------------------------------------------------------------------------------------
PERM:
    Cases processed.............................................          61,997          38,247          40,299
    Cases certified.............................................          49,205          29,502          35,051
    Workers requested...........................................         ( \2\ )         ( \2\ )         ( \2\ )
    Workers certified...........................................         ( \2\ )         ( \2\ )         ( \2\ )
H-1B:
    Cases processed.............................................         369,381         263,243         152,630
    Cases certified.............................................         368,958         266,230         127,201
    Workers requested...........................................         654,871         438,273         360,104
    Workers certified...........................................         651,762         483,203         225,146
H-2B:
    Cases processed.............................................          11,177           7,090           3,199
    Cases certified.............................................          10,257           5,871           2,738
    Workers requested...........................................         292,645         218,274          79,091
    Workers certified...........................................         250,343         154,489          61,192
H-2A:
    Cases processed.............................................           8,096           8,150           3,115
    Cases certified.............................................           7,944           7,665           2,961
    Workers requested...........................................          86,113         103,955          65,753
    Workers certified...........................................          82,078          86,014          53,349
----------------------------------------------------------------------------------------------------------------
Source: Administrative records extracted from the ETA-OFLC Case Management Systems.\1\ Includes cases processed from October 1, 2009 through March 31, 2010.
\2\ Not applicable. A permanent ``green card'' application only contains one named beneficiary.

    Question. For the PERM Program, the decrease in case certifications 
from fiscal year 2008 to fiscal year 2009 is attributable, in large 
measure to the following reasons:
  --Inadequate number of Federal staff to perform final case 
        adjudications.
  --Increased integrity measures implemented, e.g., the number of cases 
        placed in audit, supervised recruitment. The declining state of 
        the economy especially U.S. worker availability in conjunction 
        with employer layoff data prompted increased scrutiny of 
        applications especially those filed by employers who were 
        experiencing layoffs.
  --The state of the economy did affect the nature and number of H-2B 
        filings. Further, changes in the regulations implementing both 
        the H-2A and H-2B influenced filing patterns.
    Question. Would you please provide these statistics by occupation, 
trade group and visa category?
    Answer. The table below entitled ``Top 10 PERM Occupations, fiscal 
year 2008-2010'' illustrates the top 10 occupations for which employers 
requested workers by type of visa for each of the 3 fiscal years (thru 
March 31, 2010). OFLC does not collect data by trade group, so that is 
not included. Because nearly all positions certified under the H-2A 
visa program involve the planting, cultivating, and harvesting of 
fruits and vegetables, more than 98 percent of workers are employed in 
the occupation of ``Farmworker Laborer, Fruits and Vegetables.''

           TABLE 1D.--ETA OFLC TOP 10 H-1B OCCUPATIONS, FISCAL YEAR 2008-2010 (THROUGH MARCH 31, 2010)
----------------------------------------------------------------------------------------------------------------
                                                   Applications    Applications       Workers         Workers
                 Top occupation                      processed       certified       requested       certified
----------------------------------------------------------------------------------------------------------------
                FISCAL YEAR 2008Computer systems analysis and programming.......         183,162         183,462         380,299         379,864
Architectural occupations.......................           4,251           4,360          27,234          26,436
College and university occupations..............          23,159          23,192          24,843          24,810
Other computer related occupations..............          19,361          19,405          23,326          23,278
Accountant, auditors, and related occupations...          14,515          14,550          23,063          22,990
Budget and management occupations...............           7,776           7,797          21,333          21,367
Electrical engineering occupations..............          13,531          13,583          16,979          16,853
Physicians and surgeons.........................           9,359           9,400          13,693          13,598
Data communications and network occupations.....           4,741           4,756          12,630          12,613
Secondary school education occupations..........           4,007           4,028           9,286           9,167                FISCAL YEAR 2009Computer systems analysis and programming.......         107,858         108,349         233,742         238,039
Budget and management occupations...............           5,569           5,620          38,348          38,721
Other computer related occupations..............          12,470          12,551          18,617          18,510
Architectural occupations.......................           2,140           2,172          17,316          16,301
College and university occupations..............          16,076          16,132          16,655          16,597
Accountant, auditors, and related occupations...          10,542          10,667          16,482          16,357
Electrical engineering occupations..............           8,926           8,987          11,104          10,980
Physicians and surgeons.........................           7,740           7,804          10,600          10,500
Miscellaneous managers and officials............           5,403           5,451           6,932           6,884
Miscellaneous professional, technical, and                 5,014           5,062           6,466           6,418
 managerial occupations.........................              FISCAL YEAR 2010 \1\Computer software engineers, applications.......          14,396          12,675          75,773          20,547
Computer programmers............................          17,740          15,936          54,693          52,354
Software quality assurance engineers and testers           1,059             940          53,601           1,470
Computer systems analysts.......................          16,451          14,835          45,599          43,275
Computer software engineers, systems software...           7,216           6,629          10,180           9,445
Physicians and surgeons, all other..............           2,589           2,196           4,785           3,398
Financial analysts..............................           3,813           3,097           4,572           3,791
Market research analysts........................           3,804           2,654           3,934           2,771
Management analysts.............................           2,934           2,348           3,932           3,287
Physical therapists.............................           2,241           1,924           3,808           3,352
----------------------------------------------------------------------------------------------------------------
Source: Administrative records extracted from the ETA-OFLC Case Management Systems.\1\ Includes cases processed from October 1, 2009 through March 31, 2010.


           TABLE 1E.--ETA OFLC TOP 10 H-2B OCCUPATIONS, FISCAL YEAR 2008-2010 (THROUGH MARCH 31, 2010)
----------------------------------------------------------------------------------------------------------------
                                                   Applications    Applications       Workers         Workers
                 Top occupation                      processed       certified       requested       certified
----------------------------------------------------------------------------------------------------------------
                FISCAL YEAR 2008Landscape laborer...............................           3,458           3,375          79,223          76,383
Housekeeping, cleaner...........................             724             689          23,984          22,442
Construction worker I...........................             610             572          16,591          14,618
Forest worker...................................             121             114          12,983          12,416
Amusement park worker...........................             152             150           7,322           7,262
Welder fitter...................................              57              30           6,785           2,466
Housekeeper.....................................             203             192           6,537           5,829
Waiter/waitress.................................             166             158           5,030           3,961
Dining room attendant...........................             213             208           4,451           4,325
Tree planter....................................              49              46           4,371           4,187                FISCAL YEAR 2009Landscape laborer...............................           2,030           1,793          55,840          48,315
Forest worker...................................             128             113          13,606          11,375
Welder fitter...................................              78               1          11,916              30
Housekeeping, cleaner...........................             325             277          10,381           8,256
Construction worker I...........................             341             273           9,170           6,185
Housekeeper.....................................             279             240           9,097           6,392
Amusement park worker...........................             132             129           7,571           6,783
Industrial commercial groundskeeper.............             224             208           5,363           4,840
Horse stable attendant..........................             320             265           4,095            3510
Welder, combination.............................              30  ..............           3,378  ..............              FISCAL YEAR 2010 \1\Landscape laborer...............................           1,041             986          25,337          22,184
Industrial commercial groundskeeper.............             207             189           5,624           4,598
Amusement park worker...........................             108             104           4,928           4,754
Housekeeper.....................................             196             173           4,821           3,590
Housekeeping, cleaner...........................             134             103           3,614           2,121
Construction worker I...........................             111              87           3,417           2,056
Forest worker...................................              54              37           3,313           1,725
Landscape specialist............................              49              48           1,511           1,332
Horse stable attendant..........................              66              59           1,365           1,004
Waiter/waitress.................................              69              64           1,125           1,027
----------------------------------------------------------------------------------------------------------------
Source: Administrative records extracted from the ETA-OFLC Case Management Systems.\1\ Includes cases processed from October 1, 2009 through March 31, 2010.

              federal unemployment benefits and allowances
    Question. What is the current backlog of determination decisions? 
How long does it currently take to reach determinations on trade 
adjustment assistance (TAA) petitions?
    Answer. In the first 90 days under the Trade and Globalization 
Adjustment Assistance Act of 2009 (TGAAA), TAA received more than 2,300 
petitions for assistance. The initial petition filings created the 
backlog that TAA has systemically reduced on a weekly basis.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    There are currently 835 cases that have been under investigation 
for more than 40 days; the average backlogged case is 133 days overdue. 
The time taken to reach a decision is steadily decreasing as DOL works 
through the remainder of the petition backlog.
    Question. How did DOL prepare for the sharp increase in petitions? 
Has DOL hired additional investigators?
    Answer. DOL began preparing for the anticipated increase in program 
petitions immediately after the President signed the ARRA containing 
the TGAAA. At that time, DOL had about 20 Federal staff and 14 contract 
staff working in the TAA program. Those staff included staff focused on 
petition investigations, program policy, funding, data collection and 
management, and office support.
    The TGAAA significantly expanded the TAA program which resulted in 
an increase in petition filings of 104 percent from fiscal year 2008 to 
fiscal year 2009. While the ARRA reauthorized and expanded the program, 
it did not contain any funding specifically for the Federal 
administration of TAA. DOL used departmental management funds included 
in the ARRA to fund staffing and other TGAAA implementation costs.
    Using these ARRA funds and other existing DOL resources, the DOL's 
ETA began a major hiring effort. As of March 2010, ETA had 28 permanent 
Federal staff and 20 ARRA-funded temporary Federal staff working on the 
TAA program. Of the 48 current program staff, 42 currently focus on 
petition investigations and the associated data management and 
notification process, while 6 focus on delivery of services, program 
policy, funding, correspondence and data collection, and management. 
Additionally, ETA has nine contract staff providing support to the TAA 
office.
    Question. What are DOL's plans to reduce the backlog of petitions?
    Answer. In addition to the intensive hiring effort undertaken by 
ETA, DOL has implemented an office realignment strategy to more 
effectively and efficiently address the TAA petition backlog. This 
strategy includes better TAA petition management; more equally balanced 
team and management structures; and incorporated a specialized team of 
investigators tasked with quickly resolving the most difficult cases. 
DOL also secured the assistance of a TAA investigation expert to help 
examine different and effective strategies within the current 
investigative process. Through this study, DOL identified areas to 
improve the petition investigation process and has implemented changes 
that are leading to more efficient case investigations. As a result, 
DOL has reduced the backlog by 37 percent since the beginning of 
January 2010. DOL continues to explore hiring options to ensure 
efficient staff planning and preparation for attrition of staff as a 
result of the expiration of ARRA-funded positions on September 30, 
2010. As part of its planning for the loss of staff, DOL has requested 
an increase of 16 full-time equivalents for the TAA program in fiscal 
year 2011.
    Question. How many petitions has DOL certified from firms that 
would not have been eligible for TAA benefits prior to the expansion of 
the program? How many workers have been certified in the period since 
the expansion compared to the same time period prior to the expansion?
    Answer. Under the TGAAA, TAA has certified more than 2,300 
petitions and certified an estimated 255,000 workers from May 18, 2009 
to April 12, 2010. The same time-period in the previous year, TAA 
certified 1,561 petitions and 153,463 estimated workers.

                   TAA CERTIFICATIONS UNDER THE 2009 AMENDMENTS (MAY 18, 2009-APRIL 12, 2010)
----------------------------------------------------------------------------------------------------------------
                                                                                                     Estimated
                                                                     Number of     Percentage of     number of
                                                                  certifications  certifications      workers
----------------------------------------------------------------------------------------------------------------                      PRIMARY CERTIFICATIONCompany imports of articles.....................................             185            7.94          24,017
Company imports of services.....................................              37            1.59           2,540
Customer imports of articles....................................             315           13.53          40,363
Customer imports of services....................................              22             .94           4,565
Imports of finished articles containing like or directly                       7             .3              591
 competitive components.........................................
Imports of finished articles containing foreign components......               3             .13             124
Imports of articles produced using worker services..............               4             .17             345
Increased aggregate imports.....................................              69            2.96           9,243
Shift in production.............................................             730           31.34          96,100
Acquisition of articles from a foreign country..................              89            3.82           7,674
Shift in services...............................................             357           15.33          17,515
Acquisition of services from a foreign country..................             106            4.55           6,916
Public agency...................................................  ..............  ..............  ..............
ITC determination...............................................              20             .86           5,813                     SECONDARY CERTIFICATIONSecondary component supplier....................................             283           12.15          33,554
Secondary service supplier......................................              74            3.18           3,098
Downstream producer.............................................              28            1.2            2,980
                                                                 -----------------------------------------------
      Totals....................................................           2,329          100            255,438
----------------------------------------------------------------------------------------------------------------

    The certification rate under the TGAAA is about 82 percent compared 
to 70 percent prior to the TGAAA. While DOL cannot quantify the number 
of workers that would have been denied prior to the expansion, the 
increase in the certification rate is attributable to the expansions in 
the service sector in the TGAAA. Prior to the TGAAA workers who 
performed services could be certified, but only when associated with 
the production of an article; the TGAAA allows for stand-alone service 
sector certifications and includes other smaller expansions. In fiscal 
year 2008, workers not producing an article caused the greatest numbers 
of TAA denials.
    Question. What is the administration's position on reauthorizing 
the TAA program when it expires on December 31, 2010?
    Answer. The administration supports the reauthorization of the TAA 
program, including continuing the expansions to the program contained 
in the TGAAA, and included reauthorization in the 2011 President's 
budget.
              office of labor-management standards (olms)
    Question. OLMS administers and enforces provisions of the Labor-
Management Reporting and Disclosure Act. This Act requires that labor 
unions, which represent private sector employees, file financial 
disclosure reports with OLMS and make those reports available to union 
members. The Act also established minimum standards for elections to 
choose union officers.
    In fiscal year 2010, the administration requested, and Congress 
approved, an 8 percent reduction in the budget for OLMS. For fiscal 
year 2011, the administration requests a $3.8 million increase but the 
majority is for computer modernization. The fiscal year 2011 request 
would keep the number of employees at 269--the same level as the 
current fiscal year. This is well below the 298 employed at the agency 
in fiscal year 2009.
    How has the reduction in staffing since fiscal year 2009 affected 
the enforcement of union reporting requirements?
    Answer. OLMS is fully funded and is well-positioned to maintain and 
improve upon its historically strong enforcement record. OLMS continues 
to improve targeting of audits and ensuring increased internal process 
efficiency in order to bring the best cases to protect union members' 
rights. In fact, OLMS' fiscal year 2009 enforcement numbers clearly 
demonstrate an increase in the number of criminal investigations, 
conviction levels, and delinquent report investigations, as compared to 
fiscal year 2008.

------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
          Enforcement activity                 2008            2009
------------------------------------------------------------------------
Election complaint investigations.......             130             129
Supervised re-run elections.............              35              32
Election complaints resolved (figure                  35              32
 represents both agreements and
 lawsuits)..............................
Criminal investigations.................             393             404
Indictments.............................             131             122
Convictions.............................             103             120
Compliance audits.......................             798             754
Delinquent report investigations........           2,019           2,596
Deficient investigations................             799             749
------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                      Enforcement activity                          2008, first     2009, first     2010, first
                                                                       half            half            half
----------------------------------------------------------------------------------------------------------------
Election complaint investigations...............................              50              60              72
Supervised re-run elections.....................................              16              19              10
Election complaints resolved (figure represents both agreements               10              15              17
 and lawsuits)..................................................
Criminal investigations.........................................             181             184             154
Indictments.....................................................              70              52              59
Convictions.....................................................              53              55              56
Compliance audits...............................................             353             360             246
Delinquent report investigations................................             721             845             968
Deficient report investigations.................................             375             343             255
----------------------------------------------------------------------------------------------------------------

    At the midpoint of fiscal year 2008 and fiscal year 2009, 
delinquent and deficient report investigations were roughly comparable 
to the midyear fiscal year 2010 figure, shown above in the far right 
column. Specifically, as of March 31, 2009, OLMS recorded 845 
delinquent report investigations and 343 deficient report 
investigations. As of March 31, 2008, the figures were 721 and 375, 
respectively.
    Question. For the last fiscal year, how many unions have not filed 
their financial disclosure forms?
    Answer. OLMS estimates that 25,378 Labor Organization Annual 
Financial Reports were due in fiscal year 2009. Not all unions use the 
same fiscal year beginning and ending dates; slightly less than two-
thirds use a January 1-December 31 fiscal year. To conform the 
different fiscal year beginning and ending dates with the Federal 
fiscal year dates, we here include unions whose fiscal year ended on or 
after 10/1/2008 but on or before 9/30/2009. Because the reports are not 
actually due until 90 days following the close of the union's fiscal 
year, the 25,378 total reflects all unions who would owe OLMS a report 
sometime during fiscal year 2009. As of April 19, 2010, approximately 
860 labor unions had not filed the fiscal year 2009 report.
    Question. How will DOL ensure that OLMS remains independent now 
that the office reports directly to the Secretary?
    Answer. Effective November 8, 2009, the umbrella organization known 
as the Employment Standards Administration (ESA) ceased to exist. DOL 
had decided to abolish ESA while maintaining the four component 
programs (the Wage and Hour Division, OLMS, the Office of Federal 
Contract Compliance Programs, and the Office of Workers' Compensation 
Programs) as stand-alone organizations, reporting directly to the 
Secretary of Labor. This move greatly improved the visibility and 
access of the four agencies to the Secretary, facilitating improved 
communication and more efficient operations. OLMS, as the previous 
statistics clearly demonstrate, remains committed to a robust 
enforcement program.
                             budget deficit
    Question. In fiscal year 2009, the Federal budget deficit was $1.4 
trillion. The administration is projecting a deficit of $1.6 trillion 
for fiscal year 2010. The administration has requested a 3 percent 
increase in discretionary funding for DOL for fiscal year 2011 (up from 
$13.5 billion to $14 billion). While the administration proposes some 
program eliminations and program reductions, they do not offset the 
proposed increases in the budget.
    What are the DOL's long-term plans to slow or reduce the increase 
in discretionary spending?
    Answer. DOL is working within the administration's direction to 
freeze discretionary nonsecurity spending for 3 years. As such, we 
continue to examine how to focus limited resources on achieving results 
for DOL. We are currently developing a new strategic plan for DOL that 
implements my strategic vision of ``Good Jobs for Everyone''. We have 
established outcome goals that support this vision and are currently 
developing performance goals. As we determine our resource needs, 
having these goals will help us develop responsible budget requests 
within the President's direction. We are also looking at what programs 
are not working or do not clearly support my vision. Consistent with 
applicable law, resources will be shifted from these ineffective 
programs to those that are proven to work.
    Ultimately, DOL's plan is to invest in improving jobs for America's 
workforce. As unemployment decreases, so does the administrative costs 
of the unemployment insurance program. As worker pay increases, so 
rises the resources to reduce our reliance on borrowing to balance the 
Federal budget. In short, our focus on ``Good Jobs for Everyone'' is an 
investment that will help reduce discretionary spending as well as 
speed the Nation's economic recovery.
    Question. What are DOL's plans to improve the efficiency and 
effectiveness of programs administered by DOL?
    Answer. DOL is requesting $14 billion in discretionary funding for 
fiscal year 2011, a reduction of $299 million (3 percent) below the 
fiscal year 2010 discretionary budget of $14.3 billion. In fiscal year 
2011, DOL will implement a new evaluation program that will rebuild 
DOL's evaluation capacity and support a rigorous evaluation agenda that 
measures the efficiency and effectiveness of programs and interventions 
and informs policy, management, and resource allocation decisions.
    The new evaluation program will be headed by a Chief Evaluation 
Officer (CEO) who will be responsible for developing a comprehensive 
DOL evaluation program that ensures that research and evaluation are 
aligned with DOL's performance goals and strategic vision. The CEO will 
assist agencies in preparing their annual research and evaluation plans 
and provide technical assistance in project design and analysis.
    In fiscal year 2010, resources are being allocated to evaluations 
that improve the effectiveness of Government through evidenced-based 
research. The highest priority has been given to impact evaluations, or 
evaluations aimed at determining the causal effects of programs.
    In fiscal year 2011, DOL received $40.3 million to fund five 
rigorous evaluations and demonstration of workplace safety enforcement 
and workforce development services. Many of these evaluations will 
employ random assignment methods and others will use the most rigorous 
empirical methods available.
    In keeping with the President's vision of a transparent and 
accountable Government, DOL will publish all final reports from program 
evaluations in a timely manner.
                                 ______
                                 
             Question Submitted by Senator Mitch McConnell
    Question. Given the high rate of unemployment within the veteran's 
population, what is the Department of Labor (DOL) doing to help ensure 
that these brave service members are able to find jobs when they return 
to civilian life?
    Answer. The Veterans' Employment and Training Service (VETS) is 
playing a leadership role within the DOL to assist returning service 
members in their transition back to civilian life. To leverage the 
broader range of resources available across DOL, VETS is undertaking 
new initiatives in partnership with other Federal and DOL agencies. 
They include:
  --Applying Priority of Service to Leverage Enhanced Resources.--In 
        partnership with the Employment and Training Administration 
        (ETA), VETS is emphasizing that the recently published Final 
        Rule on Priority of Service for veterans and eligible spouses 
        is to be applied to the enhanced services delivered by ETA 
        under the funding provided through the American Recovery and 
        Reinvestment Act (ARRA).
  --Initiating a Redesign of Transition Assistance Program (TAP) 
        Employment Workshops.--VETS, in partnership with the Department 
        of Defense and the Department of Veterans Affairs, has 
        exercised lead responsibility over the past 25 years for the 
        employment workshops offered under TAP. VETS recently undertook 
        an internal review of the employment workshop component of TAP 
        and concluded that this set of services will benefit from an 
        external review, with an eye to redesigning the curriculum. A 
        contract for the external review and redesign is expected to be 
        awarded during this fiscal year.
  --Partnering With Job Corps for Younger Veterans.--In partnership 
        with the ETA's Office of Job Corps, VETS is taking new 
        initiatives to offer younger veterans at risk of unemployment 
        the opportunity for referral to Job Corps Centers. This 
        initiative will take advantage of VETS' access to separating 
        service members at TAP employment workshops.
  --Stimulating Employment Opportunities for Veterans.--VETS is 
        undertaking a major outreach initiative to employers. The 
        Assistant Secretary for Veterans' Employment and Training has 
        convened an employer summit, established a relationship with 
        the U.S. Chamber of Commerce, and has assigned VETS' field 
        staff to conduct outreach activities with employers operating 
        at the State and local levels.
  --Improving Customer Service to Returning Veterans Facing Issues With 
        Employers.--To improve customer service to veterans who file 
        complaints under the Uniformed Services Employment and 
        Reemployment Rights Act (USERRA), VETS developed a Web-based 
        tutorial for nationwide dissemination and streamlined some 
        burdensome, paper-oriented aspects of this program. The 
        tutorial is an interactive instruction with video clips to 
        increase service member's and employer awareness with respect 
        to service member's rights under the USERRA.
  --Refocusing the Jobs for Veterans State Grants.--With participation 
        by ETA, VETS is emphasizing increased delivery of intensive 
        services by Disabled Veterans' Outreach Program specialists and 
        increased conduct of employer outreach and job development 
        activities by Local Veterans' Employment Representative (LVER) 
        staff.
  --Capitalizing on New Work Opportunity Tax Credit Incentives.--In the 
        reauthorization of the Work Opportunity Tax Credit (WOTC) and 
        in the recent authorization of ARRA, Congress enhanced the 
        opportunities for veterans to benefit from the incentives 
        available to employers under WOTC. In partnership with ETA, 
        VETS is developing strategies to empower LVER staff to assist 
        veterans in gaining pre-certification for WOTC.
  --Enhancing and Expanding Outreach Through Electronic Media.--VETS 
        has re-engineered the Agency's Web site, has conducted a Web-
        based outreach session with key stakeholders and has applied 
        social networking for enhanced outreach to veterans.
  --Bridging the Gap With Rural Communities.--VETS has taken steps to 
        leverage existing rural outreach networks in an effort to 
        overcome the geographic and cultural barriers separating 
        veterans in remote locations from mainstream work 
        opportunities.
  --Strengthening Veteran Opportunities Among Federal Contractors.--
        VETS is supporting the efforts of the Office of Federal 
        Contract Compliance Programs to revise the regulations 
        governing affirmative action by Federal contractors in the 
        hiring of targeted veteran groups, so that the Federal 
        contractors' responsibilities are more clearly specified.

                          SUBCOMMITTEE RECESS

    Senator Harkin. The subcommittee will stand recessed.
    [Whereupon, at 9:52 a.m., Tuesday, March 23, the hearing 
was adjourned and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
